Quarte erly Progress and
Oversig ght Repo
               ort on the
                        e Civ
                            vilian
                                 n
Asssistance Proggram
                   m in Pakisstan
As of June 30, 2011
Foreword 

This is the sixth quarterly progress and oversight report on the U.S. Government’s civilian assistance
program in Pakistan. The U.S. Embassy in Pakistan requested quarterly reporting to inform stakeholders
about progress achieved to date, problems encountered during program implementation, and actions
taken to address them.

This report covers April 1 through June 30, 2011. For fiscal year (FY) 2011, Congress appropriated
$1.086 billion authorized by the Enhanced Partnership with Pakistan Act of 2009, along with other
assistance funds, to support the civilian assistance strategy in Pakistan. The U.S. Embassy reported that
$416.6 million in FY 2011 civilian assistance funds had been obligated as of June 30, 2011.

The information on program status in this report is based on information provided by the departments
and agencies working in Pakistan—the U.S. Agency for International Development (USAID), the
Department of State, the Department of Defense, and the Department of Agriculture. The information
on program oversight comes from audits, reviews, and investigations performed by the Offices of
Inspector General of the U.S. Agency for International Development, the Department of State, and the
Department of Defense, as well as by the U.S. Government Accountability Office.




____________/s/ ___________________
The Honorable Donald A. Gambatesa
Inspector General
U.S. Agency for International Development



____________/s/ ___________________
The Honorable Harold W. Geisel
Deputy Inspector General
Department of State



____________/s/ ___________________
The Honorable Gordon S. Heddell
Inspector General
Department of Defense
Contents
Executive Summary ........................................................................................................................................................... 1 


Background.......................................................................................................................................................................... 3 


Program Status ................................................................................................................................................................... 5 


    Flood Response ............................................................................................................................................................. 8 


    High-Impact, High-Visibility Infrastructure ............................................................................................................ 10 


    Focused Humanitarian and Social Services: Immediate Postcrisis and Humanitarian Assistance ...........14 


    Focused Humanitarian and Social Services: Increased Access to and Quality of Education and 

     Health Services ......................................................................................................................................................... 18 


    Government Capacity Development: Improved National and Local Governance .....................................21 


    Government Capacity Development: Improved Security and Legal Institutions .......................................25 


    Assistance to Pakistani Institutions ......................................................................................................................... 27 


Staffing ................................................................................................................................................................................ 31 


Risks and Mitigation Strategies ..................................................................................................................................... 32 


Oversight Status ............................................................................................................................................................... 36 


    USAID Office of Inspector General........................................................................................................................36 


    Department of State Office of Inspector General .............................................................................................. 41 


    Department of Defense Office of Inspector General ........................................................................................ 42 


    Government Accountability Office ......................................................................................................................... 42 


    Completed Oversight Reports as of June 30, 2011 ............................................................................................ 44 


Appendix—–Abbreviations ........................................................................................................................................... 47 

Executive Summary
The Enhanced Partnership with Pakistan Act of 2009, Public Law 111-73 (October 15, 2009) authorizes
democratic, economic, and development assistance to Pakistan in the amount of $1.5 billion per year
from fiscal year (FY) 2010 to FY 2014, for a total of $7.5 billion. The U.S. Department of State’s Pakistan
Assistance Strategy Report, issued in December 2009, informs the U.S. Government’s civilian assistance
program in Pakistan, which is designed to build trust and a long-term partnership between the two
countries by strengthening mutual security, stability, and prosperity.

For FY 2011, Congress appropriated $1.086 billion authorized by the Enhanced Partnership with
Pakistan Act of 2009, along with other assistance funds, to support the civilian assistance strategy in
Pakistan. As of June 30, 2011, the U.S. Embassy reported that $416.6 million in FY 2011 civilian
assistance funds had been obligated. As stated in the December 2009 Report, these funds are intended
to  support high-impact, high-visibility infrastructure; focused humanitarian and social services; and
government capacity development. The funds also support shifting requirements and needs as
determined by the U.S. Government in consultation with the Government of Pakistan.

The U.S. assistance program to Pakistan was affected by significant economic, political, and security
challenges during the reporting period. In particular, implementation and monitoring of USAID projects
were hindered by stricter Government of Pakistan requirements for travel outside Islamabad and
provincial capitals. Staffing was hampered by the denial of visas and visa extensions for U.S. Government
employees, and USAID personnel were harassed by local authorities. Despite these challenges, the
United States fulfilled its pledge to provide $190 million to the Citizen’s Damage Compensation
Program, a major achievement toward flood recovery and reconstruction.

USAID—the largest contributor to the assistance program—increased the scale of the activities it
supports while strengthening implementation. Since the start of FY 2011, USAID has made 32 awards
totaling about $406.6 million to governmental and nongovernmental Pakistani institutions; this quarter
USAID made 6 awards totaling $222.9 million. To mitigate risk and improve monitoring and oversight,
USAID continued monitoring programs in insecure areas through Pakistani firms, conducting preaward
assessments of local implementing partners, and providing technical assistance to government ministries.
Additionally, this quarter, USAID awarded a missionwide monitoring and evaluation contract that
involves conducting routine monitoring, collecting data, and performing evaluations and assessments.

To ensure that USAID’s funds are protected against waste and theft, USAID’s Office of Inspector
General (OIG) held briefings, pursued hotline complaints, and conducted investigations and audits.
USAID OIG hosted two fraud-awareness briefings in Pakistan for USAID, U.S. Consulate, and
contractor personnel and continued to collaborate with USAID/Pakistan on the Anti-Fraud Hotline.
During the quarter, the hotline received 1,303 complaints related to projects funded by USAID and
other organizations. USAID OIG initiated a number of investigations based on hotline allegations.



                                                                                                         1
Also during the quarter, USAID OIG completed six audits—two performance audits and four financial
audits. USAID OIG reviewed USAID/Pakistan’s management of preaward assessments and found that
USAID had not ensured that recipients corrected significant vulnerabilities before receiving funding; this
lack of follow-up placed U.S. Government resources at higher risk for fraud, waste, and abuse. In
another performance audit, USAID OIG reviewed road rehabilitation and reconstruction activities.
USAID OIG found that fixed-amount reimbursement agreements had reduced risk and that activities
were on track, with 215 kilometers of road finished according to specifications and funding
requirements. However, to continue making progress, USAID OIG recommended nine operational
improvements ranging from designating personnel to oversee environmental compliance to tailoring
capacity building. USAID OIG also carried out four financial audits covering total incurred costs of
$6,811,739. Together, these audits questioned costs of $138,006, identified four material instances of
noncompliance, and noted four material weaknesses and three significant deficiencies in internal control.




                                                                                                        2
Background 

The Department of State developed a strategy1 in connection with the Enhanced Partnership with
Pakistan Act of 2009 (Public Law 111-73) that seeks to align U.S. assistance more closely with Pakistan’s
development and investment priorities. The U.S. strategy for civilian assistance in Pakistan has three
objectives:

•	 Improve the Government of Pakistan’s capacity to address the country’s most critical infrastructure
   needs.

•	 Help the Pakistani Government address basic needs and provide improved economic opportunities
   in areas most vulnerable to extremism.

•	 Strengthen Pakistan’s capacity to pursue economic and political reforms that reinforce stability.

To further these objectives, the strategy features programming in five areas: (1) high-impact, high-
visibility infrastructure, (2) focused humanitarian and social services—immediate postcrisis and
humanitarian assistance, (3) focused humanitarian and social services—increased access to and quality of
education and health services, (4) government capacity development—improved national and local
governance, and (5) government capacity development—improved security and legal institutions.

In 2011 the strategy has been refined to prioritize assistance in key areas—energy, economic growth
and agriculture, stabilization, education, and health—and to emphasize better governance, a cross­
cutting goal that is an integral part of all programs. USAID’s approach to Pakistan focuses on addressing
the country’s energy crisis, raising incomes in the agricultural sector, improving the government’s
capacity to deliver education and health services, and expanding government control in insecure areas.2

The reporting period, April 1–June 30, 2011, was marked by significant economic, political, and security
challenges that affected the U.S. assistance program to Pakistan. Despite these challenges, Secretary of
State Hillary Clinton stated in May that the U.S. Government “is prepared to stand by the Pakistani
people for the long haul.”3 Similarly, during a visit to Islamabad in May, Senator John Kerry expressed
his determination to ensure that programs financed by the Enhanced Partnership with Pakistan Act of
2009 proceed and demonstrate the U.S. Government’s long-term commitment to Pakistan.4 Shortly
thereafter the United States fulfilled its pledge to provide $190 million to the Citizen’s Damage
Compensation Program, a major achievement toward flood recovery and reconstruction. Through the


                                                            
1
  Pakistan Assistance Strategy Report, December 14, 2009.
 
2
   J. Alexander Thier, “USAID: Achieving Results in Pakistan,” USAID IMPACTblog, June 1, 2011.

3
  U.S. Embassy Islamabad, Transcript of Secretary Clinton’s and Admiral Mullen’s Remarks, May 27, 2011.

4
  U.S. Embassy Islamabad, “Senator Kerry’s Statement to the Pakistani Media,” May 16, 2011. 


                                                                                                           3
program, the Governm
                   ment of Pakiistan will pro
                                            ovide cash suupport to Pakistani familiees affected by last
summer’ss floods.5


                                                               Figure 1. Map of Pak
                                                                                  kistan




Source: USAID’s Office of Transition Initiatives, Geo
                                                    ographic Inform
                                                                  mation Unit.




                                                            
5
  USAID/P Pakistan, “Deputy Secretarry of State Thomas R. N ides Press Sttatement withh Minister Shhaikh,”
          011.
June 13, 20


                                                                                                        4
Program Status 

The U.S. departments and agencies delivering development assistance in Pakistan are implementing
programs in the areas of flood response; high-impact, high-visibility infrastructure; postcrisis and
humanitarian assistance; education and health services; national and local governance; and security and
legal institutions. The following sections update the status of the programs.

The U.S. Embassy reported that as of June 30, 2011, $4.513 billion in FY 2009, 2010, and 2011 funds had
been obligated to support the civilian assistance strategy (Table 1). Of this total, the amount obligated
in FY 2011 funds was $416.6 million.

                        Table 1. Program Financial Status as of June 30, 2011
                                            ($ Millions)

                                                                     Obligations
                                                            FY       FY       FY             Pipeline
              Program                     Manager
                                                           2009     2010     2011   Total    Amount*

 Flood Response: Emergency
 Relief and Early Recovery
 World Food Programme                  USAID                 –      144.0    95.8   239.8         –
 Humanitarian programs – Office of
 Transition Initiatives, Pakistan’s
 National Disaster Management
                                       USAID                 –       60.0     –      60.0        10.0
 Authority, Pakistan Poverty
 Alleviation Fund, Rural Support
 Programmes Network
 Humanitarian programs – Office of
 Foreign Disaster Assistance           USAID                 –      215.9     –     215.9        28.6
 (OFDA)
 Narcotics Affairs Section (NAS),                                  In-kind
                                       NAS                   –                –       –               –
 U.S. Embassy                                                      support
                                       Political Affairs
 Pakistan Internally Displaced
                                       Section (POL),        –       49.3     –      49.3             –
 Persons
                                       U.S. Embassy
 Overseas Humanitarian, Disaster,      Department of
                                                             –      113.0     –     113.0         5.0
 and Civic Aid                         Defense (DOD)
 Subtotals                                                   –     582.2     95.8   678.0        43.6
 High-Impact, High-Visibility
 Infrastructure
 International Trade Administration,
                                       DOC                   3.8      0.8     –       4.6         1.0
 Department of Commerce (DOC)
                                       Department of
 Foreign Agricultural Programs†        Agriculture          44.0     51.8     –      95.8        35.0
                                       (USDA)


                                                                                                          5
                                                                Obligations
                                                       FY       FY       FY               Pipeline
               Program                  Manager
                                                      2009     2010     2011     Total    Amount*

USAID transfer to U.S. Trade and
                                      USTDA             5.0      –        –        5.0        3.6
Development Agency (USTDA)†
Federally Administered Tribal Areas
                                      NAS              15.0      –        –       15.0       11.4
(FATA) roads, bridges
FATA roads (Swat, Ring Road)          NAS              40.0      –        –       40.0       38.8
Energy†                               USAID           125.0     91.5      –      216.5      138.2
Agriculture†                          USAID            95.0    135.7      –      230.7      104.1
Economic    growth†                   USAID           166.0     61.3      –      227.3      209.6
Subtotals                                             493.8    341.1      –      834.9      541.7
Focused Humanitarian and
Social Services
Health/Water†                         USAID           102.0    232.1      –      334.1      264.0
Health†                               USAID             –       29.7      –       29.7        –
Education†                            USAID           163.5    209.5      –      373.0      232.7
Humanitarian assistance†              USAID           209.0    325.0      –      534.0       84.8
Humanitarian programs – OFDA          USAID           103.0     18.2    111.8    233.0       54.9
World Food Programme                  USAID            55.4     89.8     29.1    174.3        –
USAID transfer to the United
                                      U.N.              1.0      –        –        1.0        –
Nations’ (U.N.) Bhutto Commission
                                      DOD/
Community Stabilization and
                                      Department of    10.0      –        –       10.0        9.1
Humanitarian Assistance Fund
                                      State (DOS)
                                      Department of
Mitigating Child Labor                                  –        4.0      –        4.0        –
                                      Labor
Mine Action – Response
                                      POL               0.5      –        –        0.5        0.2
International
Trafficking in Persons                POL               0.5      0.8      –        1.3        1.0
Pakistan Internally Displaced
                                      POL              59.6     42.0     29.2    130.8       10.7
Persons
Afghan Refugees                       POL              76.8     80.5     16.9    174.2       55.2
Fulbright                             PAS              19.5     19.5     19.5     58.5       20.0
Other exchanges                       PAS               5.0      6.0      –       11.0        –
Public diplomacy operating
                                      PAS               2.0      2.0      –        4.0        –
expenses
Subtotals                                             807.8   1,059.1   206.5   2,073.4     732.6
Government Capacity
Improvement
Drug Enforcement Administration
                                      DEA               1.5      1.5      1.5      4.5        –
(DEA)
                                      Department of
Energy programs                                        66.6     94.2     68.6    229.4       65.0
                                      Energy

                                                                                                     6
                                                                      Obligations
                                                            FY        FY       FY               Pipeline
              Program                     Manager
                                                           2009      2010     2011    Total     Amount*

                                       Department of
 Immigration and Customs
                                       Homeland              1.1       1.1      1.1      3.3         –
 Enforcement
                                       Security
 Federal Bureau of Investigation
                                       FBI                   1.0       1.0      1.0      3.0         –
 (FBI)/Legal Attaché Office
 Democracy Rights Labor                POL                   6.8       5.7      0.7     13.2         1.0
 Democracy – National Endowment
                                       POL                   4.3       3.4      1.2      8.9         3.0
 for Democracy
 Counternarcotics†                     NAS                   3.0       5.5      –        8.5         7.6
 Border Security (Aviation)            NAS                  37.0      52.0      –       89.0        51.0
 Border Security (Commodities,
                                       NAS                   0.2       –        –        0.2        11.0
 Training)
 Police/law enforcement training/
                                       NAS                  51.0     106.6      –      157.6       146.7
 rule of law†
 Demand Reduction/Awareness†           NAS                   0.5       1.5      –        2.0         2.1
 Program development support†          NAS                   9.8       4.4      –       14.2         –
                                       Regional
                                       Security Office
 Counterterrorism†                                          11.8      17.0      –       28.8        15.4
                                       (RSO), U.S.
                                       Embassy
                                       Economic
 Biosecurity Engagement                Affairs Section,     12.5      16.0     17.5     46.0        16.7
                                       U.S. Embassy
 U.S. Institute of Peace (USIP)        USIP                  0.6       1.3      0.7      2.6         0.8
 Democracy/Governance†                 USAID                40.0      97.7      –      137.7       198.1
 Office of Transition   Initiatives†   USAID                68.0      23.4      –       91.4        21.4
 USAID transfer to USAID/OIG†          USAID/OIG             –         2.0      4.8      6.8         –
 Commercial Law Development
                                       DOC                   –         –        1.0      1.0         –
 Program
 Subtotals                                                 315.7     434.3    98.1    848.1       539.8
 Other Programs
 Strategic communications              DOD                   7.0       7.0      7.0     21.0         –
 Strategic communications†             PAS                  30.9      17.8      9.2     57.9        28.5
 Subtotals                                                  37.9      24.8    16.2      78.9        28.5
 Totals                                                   1,655.2   2,441.5   416.6   4,513.3    1,886.2

Source: U.S. Embassy Islamabad.
* The Embassy provided pipeline amounts that capture unspent funds from FYs 2002–11. These amounts are not
comparable to FY 2009, 2010, and 2011 obligations or accurate indicators of expenditures for those years.
† The final FY 2011 spending plan has not yet been approved by congressional committees and has not yet been

released for obligation, with the exception of the Fulbright Program and other exchange programs.

                                                                                                           7
Flood Response
             e

Pakistan experienced the worst flo  oods in nearrly 100 years during Auguust and Septeember 2010. The
flooding affected over 20 million peeople, caused approximateely 1,980 deaaths, and desttroyed or dam
                                                                                                    maged
about 1.7 million housees. The map below showss areas affecteed by the floooding.

                                    Figure 2. Flo
                                                ood Map of Pakistan




  Source: USAID’s Officce of Foreign Disaster Assistance, Geograpphic Informatio
                                                                               on Unit.


In responnse, the U.S. Government has been wo orking closelyy with the Government of Pakistan annd the
internatio
         onal community as assistan
                                  nce efforts have moved f rom relief too recovery annd reconstruuction.
Table 2 lists USAID’ss 19 flood assistance prrograms, alonng with stattus and funding details. These



                                                                                                       8
programs also appear under the corresponding assistance categories: high-impact, high-visibility
infrastructure and immediate post-crisis and humanitarian assistance.

                   Table 2. USAID’s Flood Assistance Programs as of June 30, 2011

    Implementing Partner                 Program Description                      Status and Funding
                                                                             Completed in June 2011;
                                    Reproductive health and hygiene kits
U.N. Population Fund (UNFPA) 	                                               $6 million; 100% of health and
                                    for women in flood-affected areas
                                                                             hygiene kits supplied
                                                                             Completed flood component of
                                                                             program in June 2011;
                                    Entrepreneurs Program supporting 	       $1.5 million; grants, equipment,
Mennonite Economic Development
                                    women’s microenterprises in	             and agricultural inputs distributed
Associates
                                    vulnerable areas 	                       to 39,000 beneficiaries; 28,970
                                                                             animals vaccinated against foot and
                                                                             mouth disease
                                                                             Completed in December 2010;
                                    Mobile health teams and nutritional
Aga Khan University	                                                         $6.4 million; program extended
                                    support in flood-affected areas
                                                                             until December 2011
World Health Organization (WHO)     Immunizations for polio and measles
                                                                             Completed; $5.6 million
and U.N. Children’s Fund (UNICEF)   in flood-affected areas
                                    Municipal Services Delivery Program      In progress; $10 million;
Provincial Governments              rehabilitating flood-affected            assessments completed;
                                    infrastructure                           rehabilitation work in process
                                    Capacity building and procurement of 	   In progress; $5.8 million;
International Organization for
                                    relief supplies for the National	        program expected to be
Migration (IOM)
                                    Disaster Management Authority	           completed in December 2011
                                    Seed and fertilizer distribution to 	    In progress; $62 million ($47
U.N. Food and Agriculture
                                    flood-affected farmers in Khyber 	       million from USAID/Pakistan and
Organization (FAO)
                                    Pakhtunkhwa, Punjab, and Balochistan 	   $15 million from USAID/OFDA)
                                                                             In progress; $15 million; second
                                    Procurement and distribution of
Rural Support Programmes 	                                                   tranche of cash for work will be
                                    replacement crops for flood-affected
Network 	                                                                    disbursed after the harvest; 80% of
                                    households in Sindh
                                                                             harvesting is complete
                                    Firms Project assisting small and
                                                                             In progress; $11.5 million;
                                    medium-sized enterprises in areas
Chemonics 	                                                                  $750,000 distributed to 239 hotels
                                    vulnerable to conflict to make the
                                                                             and fisheries
                                    businesses internationally competitive
                                    Deliver Project—renovation of flood-
                                                                             In progress; $7.2 million; orders
                                    affected tuberculosis facilities and
John Snow Inc. 	                                                             placed for medicines and
                                    restocking their medicines and
                                                                             equipment; awaiting delivery
                                    equipment
                                    Monitoring of USAID-funded flood 	       In progress; $150,000; completion
APEX Consulting
                                    assistance activities in Sindh 	         expected in November 2011
                                    Monitoring of USAID-funded flood 	       In progress; $150,000; completion
Community Uplift Program
                                    assistance activities in Balochistan	    expected in November 2011
                                    Monitoring of USAID-funded flood
                                                                             In progress; $150,000; completion
Voice Tel Tech	                     assistance activities in Punjab and
                                                                             expected in November 2011
                                    Khyber Pakhtunkhwa
                                                                             In progress; $374,410 for flood-
Aurat Foundation                    Gender Equity Program                    related projects; 23 grants
                                                                             awarded



                                                                                                                 9
    Implementing Partner                     Program Description                      Status and Funding
                                                                                In progress; $1.1 million for flood-
                                       Small Grants Program for unsolicited
National Rural Support Programme	                                               related projects; 19 grants
                                       proposals and Chief of Mission Fund
                                                                                awarded
                                                                                In progress; $190 million; grant
                                                                                agreement signed between the
Government of Pakistan (Cabinet        Citizen’s Damage Compensation            Pakistani Government and USAID
Secretariat; National Database and     Program for assistance to flood-         on June 9, 2011; distribution of
Registration Authority)                affected households                      funds requires independent
                                                                                verification of intended
                                                                                beneficiaries
                                       Basic Education Program providing        In progress; $90 million for flood-
Provincial Governments
                                       support to flood-affected schools        affected schools
                                                                                In design; $24.5 million for flood-
Government of Pakistan, FATA
                                       Quick Impact Program in South            damaged roads and bridges;
Secretariat, and Frontier Works
                                       Waziristan	                              Secretary certification submitted
Organization
                                                                                to Congress*
                                                                                In design; $40.5 million
Government of Khyber                                                            ($18 million for irrigation systems
Pakhtunkhwa; Provincial                Malakand Reconstruction and              repair in Swat, $22.5 million for
Reconstruction, Rehabilitation and     Recovery Program                         roads and bridges rehabilitation in
Settlement Authority                                                            Malakand); Secretary certification
                                                                                submitted to Congress*
Source: USAID/Pakistan.
* The Consolidated Appropriations Act, 2010, Public Law 111–117 (Dec. 16, 2009), makes funds available for
government-to-government assistance to Pakistan only if the Secretary of State certifies “that the U.S. Government
and Pakistan have agreed, in writing, to clear and achievable goals and objectives for the use of the funds, and have
established mechanisms within each implementing agency to ensure that the funds will be used for the purpose for
which they are intended.”

In addition to identifying flood-related programs, USAID described initiatives that benefit flood victims:

•	 On June 9, 2011, USAID signed an agreement with the Government of Pakistan regarding the U.S.
   contribution to the Citizen’s Damage Compensation Program. Through the fund, the Pakistani
   Government will provide cash support to families that lost houses or had their livelihoods
   diminished because of the floods.

•	 The U.S. Mission in Pakistan has identified up to $500 million in FY 2009 and FY 2010 funds that are
   being reprogrammed to support the Government of Pakistan’s flood recovery efforts. Of the
   $500 million, $136 million in FY 2010 funds is pending final congressional approval.

•	 With part of the $500 million in reprogrammed funding, the Entrepreneurs Program is providing
   support to 39,000 mostly women-headed families affected by the floods for livelihood recovery.

High-Impact, High-Visibility Infrastructure

As the name implies, this category of assistance is intended to make a big difference in the Pakistani
economy, a difference that improves people’s livelihoods quickly, noticeably, and directly. The sectors in
which infrastructure programs are most critical are energy, transport, and agriculture—energy because

                                                                                                                  10
all businesses rely on it; transport because roads and bridges connect communities to markets and
enhance mobility; and agriculture because it employs 60 percent of the population and consumes
90 percent of the country’s increasingly scarce water resources, which need to be better managed.
Chronic periodic shortages of both power and water limit economic growth, as does inadequate
infrastructure for agroenterprise. USAID, the U.S. Department of Agriculture (USDA), and the U.S.
Embassy’s Public Affairs Section (PAS) support programs under this category of assistance.

USAID has 22 high-impact, high-visibility programs—19 under way and 3 in the design and planning
stages. To meet growing energy demands, USAID’s programs in this assistance category seek to help the
Government of Pakistan supply hydropower through the completion of the Gomal Zam and Satpara
Dams and the rehabilitation of the Tarbela Dam. USAID’s current programs also support Pakistan’s
provincial governments with water management and irrigation for agriculture and sanitation; health
facilities; and the delivery of municipal services. Table 3 lists USAID’s programs along with status details.

        Table 3. USAID’s High-Impact, High-Visibility Infrastructure Programs as of 

                                     June 30, 2011 


   Implementing Partner                 Program Description                             Status
                                                                        Current; agreement signed January 7,
Water and Power Development          Satpara Dam—hydropower and         2011; Secretary certification submitted
Authority (WAPDA)                    irrigation                         to Congress;* construction ongoing
                                                                        after evaluation showed dam was safe
                                                                        Current; Secretary certification
                                     Gomal Zam Dam—hydropower           submitted to Congress;* 95% of
WAPDA
                                     and transmission line completion   concrete dam work and 40% of the
                                                                        transmission line completed
                                                                        Current; Secretary certification
                                                                        submitted to Congress;* Pakistani
                                     Gomal Zam Dam—irrigation for       Government-funded construction
WAPDA
                                     agriculture                        started; environmental assessment
                                                                        required before USAID-funded
                                                                        construction begins
                                                                        Current; 2 of 3 new power units
                                     Tarbela Dam–hydroelectric
WAPDA                                                                   arrived, and installation of first unit
                                     power station rehabilitation
                                                                        almost complete  
Ministry of Water and Power,
                                     Jamshoro thermal power station
Power Generation Company                                                Current
                                     repair and maintenance
(GENCO I)
                                     Muzaffargarh thermal power
GENCO II                                                                Current
                                     station repair and maintenance
                                                                        Current; first 250 tubewells under pilot
                                                                        program completed Nov. 2010;
                                     Irrigation Tubewell Efficiency     907 farmers placed orders for motor-
International Resources Group
                                     Improvement Project                pump sets, and 666 sets replaced,
                                                                        reducing energy demand by 3.68
                                                                        megawatts
                                     Water supply and sanitation        Current; water and field assessments
Provincial Government of Sindh
                                     programs in Jacobabad              under way



                                                                                                              11
    Implementing Partner                Program Description                               Status
                                                                          Current; engineering assessment of
                                                                          system for water supply distribution
                                                                          completed; engineering assessment of
Provincial Government of Khyber      Water supply and sanitation
                                                                          sanitation system and initial field
Pakhtunkhwa                          programs in Peshawar
                                                                          assessments under way; work
                                                                          commencing on establishing Water and
                                                                          Sanitation Authority in Peshawar
                                                                          Current; Secretary certification
                                                                          submitted to Congress;* most
Ministry of Health and Provincial
                                     Lady Willingdon Hospital             rehabilitation plans complete, and
Government of Punjab
                                                                          construction of swing modular space in
                                                                          process
                                                                          Current; Secretary certification
Ministry of Health and Provincial                                         submitted to Congress;* initial
                                     Jacobabad Civil Hospital
Government of Sindh                                                       assessment complete and detailed
                                                                          assessment under way;
                                                                          Current; Secretary certification
Ministry of Health and Provincial    Jinnah Postgraduate Medical          submitted to Congress;* assessment
Government of Sindh                  Center OB-GYN/Fistula Ward           and design complete, and ground-
                                                                          breaking ceremony held in April;
                                     Karachi warehouse to store
                                                                          Current; completion of construction
Winrock International                immunization and other medical
                                                                          expected by July 10, 2011
                                     supplies
Habib-Rafique (Pvt.) Ltd./CDM        Construction of Parliamentary        Current; on schedule for completion in
Constructors, Inc.                   Institute                            October 2011
Provincial Governments of Sindh      Municipal Services Delivery
                                                                          Current
and Khyber Pakhtunkhwa               Program
                                                                          Current; disbursing funds; 1,600
                                                                          activities under way or completed,
                                     Pakistan Transition Initiative in
IOM, Creative Associates,                                                 including 400 village water systems, 225
                                     FATA/Quick Impact
Internews                                                                 flood walls, and 150 school
                                     Infrastructure in FATA
                                                                          renovations, generating 1.5 million
                                                                          person-days of employment
Government of Pakistan, FATA         Quick Impact Program in South        Current; additional funds disbursed in
Secretariat, Frontier Works          Waziristan (road, water, and         May-June 2011 for reconstruction of
Organization                         electricity)                         flood-affected roads and bridges
Provincial Government of Khyber      Malakand Reconstruction and          Current; construction work under way
Pakhtunkhwa and Provincial           Recovery Program (schools,           on 81 schools; furniture, equipment,
Reconstruction, Rehabilitation and   health, water and sanitation,        and instruments provided to 17 health
Settlement Authority                 government capacity)                 facilities
                                     Radio transmission support to        Current; back on track after delay
Pakistan Broadcasting Corporation
                                     Khyber Pakhtunkhwa and FATA          caused by collapse of one radio tower
                                     High-Efficiency Irrigation Systems
                                                                          Under redesign: funding delayed at
Ministry of Food and Agriculture     Program to improve water
                                                                          Government of Pakistan’s request
                                     management
                                     Guddu thermal power station          In design; Government of Pakistan
GENCO III
                                     repair and maintenance               amending the scope of work




                                                                                                                12
    Implementing Partner                   Program Description                              Status
                                                                            Planning stage; statement of intent
                                                                            signed in January 2011; Government of
                                       Wind-power generation project
WAPDA                                                                       Pakistan seeking land rights (Overseas
                                       in Sindh
                                                                            Private Investment Corporation also
                                                                            funding project)
Provincial Government of               Balochistan surface water
                                                                            Cancelled
Balochistan                            management (agriculture)

Source: USAID/Pakistan.
* The Consolidated Appropriations Act, 2010, Public Law 111–117 (Dec. 16, 2009), makes funds available for
government-to-government assistance to Pakistan only if the Secretary of State certifies “that the U.S. Government
and Pakistan have agreed, in writing, to clear and achievable goals and objectives for the use of the funds, and have
established mechanisms within each implementing agency to ensure that the funds will be used for the purpose for
which they are intended.”


In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its recently approved performance indicators. USAID also noted that progress on the
indicators may be reported quarterly instead of results, since some results may take several quarters to
achieve.

USAID provided the following approved FY 2011 indicators to be tracked and reported on:

•	 Megawatts of energy added as a result of U.S. Government-sponsored construction and
   rehabilitation efforts (target: 625 megawatts; result: 193 megawatts).

•	 Increase in the supply of fuel by the Government of Pakistan to higher-efficiency power plants
   (target: fuel savings estimated at 150,000 barrels of oil; result: 116,000).

•	 Number of schools and health facilities constructed with U.S. Government assistance (target: 20;
   pending result).

USAID reported the following examples of progress and success in its portfolio of agriculture and
energy programs:

•	 USAID/Pakistan’s Agriculture Office is preparing agreements with the Government of Pakistan, along
   with the necessary environmental assessments, to enhance water storage capacity and bring 191,000
   acres under irrigation around the Gomal Zam Dam. USAID expects that $40 million will be
   obligated for this activity.
•	 Progress has been made on the six signature energy projects that Secretary Clinton announced in
   October 2009 involving rehabilitation and construction of hydro and thermal plants. USAID has
   received claims for reimbursement worth $45.25 million, of which $33.87 million has been
   reimbursed to the Government of Pakistan since January 2011.
•	 Fixed-amount reimbursement agreements for the thermal plants in Guddu, Muzaffargarh, and
   Jamshoro have been amended, and construction work is now in progress at Muzaffargarh and
   Jamshoro.

                                                                                                                  13
USDA. USDA’s programming in this category focuses on modernizing agricultural infrastructure. In
February 2010, USDA announced a $30 million Food for Progress grant agreement with a U.S.-based
nongovernmental organization (NGO) to implement the Pakistan Agriculture and Cold Chain
Development Project. The project, in the Balochistan Province of southwest Pakistan, seeks to improve
food quality and supply, realize higher prices for producers, and deliver a higher-value product to
consumers. Implementation of the project has begun, and initial activities include acquiring investments,
introducing value-chain financing for apples and potatoes (financing for all the actors involved in getting
these products to the market, from input suppliers to producers and processors to exporters and
buyers), and linking traditional horticultural producers with domestic markets.

As reported last year, USDA’s agricultural investment strategy for Pakistan was reviewed and approved
by an interagency team and the U.S. House of Representatives Committee on Appropriations. Assisted
by a $19 million transfer from USAID last quarter, USDA—along with the Ministry of Food and
Agriculture and its international implementing partners—has begun to carry out the initial stage of the
strategy.

PAS.     PAS programs seek to expand media engagement, counter extremist voices, build
communications capacity, and strengthen people-to-people engagement. During the period, PAS
continued with its project to construct two AM radio transmitter towers in Khyber Pakhtunkhwa and
FATA with a USAID contractor, despite delays caused by a collapsed tower at one of the sites.

PAS also reported the cancellation of two projects. PAS and USAID cancelled the project to build the
National Data Center for Pakistan because of a lack of staff to implement the project and months-long
delays by both the U.S. and Pakistani Governments in producing key project approval documents.
Likewise, because of a lack of staff and severe security-related restrictions on Mission activities, PAS and
USAID have cancelled plans to construct an AM radio transmitter for Radio Pakistan that was intended
to serve the province of Balochistan.

Focused Humanitarian and Social Services: Immediate Postcrisis and
Humanitarian Assistance

Through international relief agencies and local institutions, the U.S. Government channels assistance for
people affected by natural disasters or by military operations in Waziristan and other areas along the
border with Afghanistan. In addition, the U.S. Government supports the Government of Pakistan’s
efforts to provide basic health, education, and other services; rehabilitate infrastructure; and create jobs.
USAID manages the largest U.S. Government humanitarian assistance programs in Pakistan.

During the reporting period, USAID had 26 programs for immediate postcrisis and humanitarian
assistance—2 completed, 23 under way, and 1 in the planning stage. Programs provided cash transfers
for assistance with housing damage and grants to continue to supply safe drinking water, nutritional
support, and health and hygiene kits to flood-affected areas. Table 4 lists the status of USAID’s
programs for postcrisis and humanitarian assistance.




                                                                                                          14
  Table 4. USAID’s Postcrisis and Humanitarian Assistance Programs as of June 30, 2011

Implementing Partner                       Program Description                                  Status
                                                                                    Completed in June 2011;
                             Reproductive health and hygiene kits for women in
UNFPA                                                                               100% of health and hygiene
                             flood-affected areas
                                                                                    kits distributed
                                                                                    Completed; vaccination
                                                                                    campaign held in January 2011
                             Immunizations for polio and measles in flood-          in 30 flood-affected districts;
WHO and UNICEF
                             affected areas                                         8.8 million children and
                                                                                    women received polio and
                                                                                    measles vaccinations
                                                                                    Current; distribution of
                             Seed and fertilizer distribution to flood-affected
                                                                                    supplies completed; cash-for­
FAO                          farmers in Khyber Pakhtunkhwa, Punjab, and
                                                                                    work component (cleaning
                             Balochistan
                                                                                    watercourses) ongoing
                             Assistance to Balochistan to improve livelihoods       Current; funds more than half
FAO
                             and food security                                      disbursed
                                                                                    Current; seeds and fertilizer
Rural Support                Procurement and distribution of replacement crops
                                                                                    distributed; cash-for-work
Programmes Network           for flood-affected people in Sindh (sunflower seeds)
                                                                                    component ongoing
                                                                                    Current; rupees distributed to
                             Cash transfer to assist internally displaced persons   beneficiaries; awaiting financial
Government of Pakistan
                             (IDPs) in Khyber Pakhtunkhwa                           audit and reporting from
                                                                                    Government of Pakistan
                                                                                    Current; disbursed $25 million
Provincial Reconstruction,                                                          in rupees for 9,500 families;
                             Cash transfer for housing damage assistance for
Rehabilitation and                                                                  monitoring and helping build
                             Khyber Pakhtunkhwa and FATA
Settlement Authority                                                                the partner’s capacity to
                                                                                    implement the program
                                                                                    Current; distributed $75
                             Cash transfer for the Benazir Income Support           million in rupees to
Government of Pakistan
                             Program                                                households; continuing to
                                                                                    monitor the program
                                                                                    Current; health camps
                             Mobile health teams and nutritional support in
Aga Khan University                                                                 operational in 25 sites in three
                             flood-affected areas
                                                                                    provinces
                                                                                    Current; funds disbursed to
                             Multi-Donor Trust Fund for reconstruction in
                                                                                    World Bank; three projects to
World Bank                   border areas, a portion of which will be used to
                                                                                    begin soon (livelihoods and
                             repair flood-damaged facilities
                                                                                    economic opportunity)
                             Capacity-building and procurement of relief
                                                                                    Current; extended through
IOM                          supplies for flood-affected people on behalf of the
                                                                                    December 2011
                             National Disaster Management Authority
                                                                                    Current; first dry mango
                             Firms Project assistance to small and medium-size      product retailed in U.S.
Chemonics                    enterprises in areas vulnerable to conflict to make    market in Dec. 2010; $750,000
                             the businesses internationally competitive             distributed to Swat hotels and
                                                                                    fisheries damaged by floods
CHF International, Inc.      Livelihood Development Program in lower FATA           Current; $60 million disbursed
Associates in                South Waziristan Agency Monitoring and
                                                                                    Current
Development                  Evaluation Contract


                                                                                                                  15
Implementing Partner                     Program Description                                    Status
                                                                                    Current; 25 schools and 15
                                                                                    health units completed; 36
CDM Constructors, Inc.     Pakistan Reconstruction Project (earthquake)
                                                                                    schools and one hospital
                                                                                    pending
                           Community Rehabilitation Infrastructure Support
Winrock International                                                               Current
                           Program
                           Accelerated capacity building of the Provincial
KPMG Taseer Hadi           Reconstruction, Rehabilitation and Settlement            Current
                           Authority
UNICEF                     Child Protection Center                                  Current
                                                                                    Current; over 48,700
                                                                                    households received
Mennonite Economic         Entrepreneurs Program supporting women’s
                                                                                    microgrants; 70,000 female
Development Associates     microenterprises in vulnerable areas
                                                                                    microentrepreneurs received
                                                                                    training in financial literacy
                                                                                    Current; USAID signed
                                                                                    agreement in June 2011 and
                                                                                    distributed $190 million to the
                           Citizen’s Damage Compensation Program for
Government of Pakistan                                                              Pakistani Government;
                           assistance to flood-affected households
                                                                                    government to verify
                                                                                    beneficiaries before releasing
                                                                                    rupees
                           Support for the Office of the Special Envoy of the
U.N. Secretariat                                                                    Current
                           Secretary General for Assistance to Pakistan
                           Deliver Project—renovation of flood-affected
                           tuberculosis facilities, restocking of their medicines
John Snow Inc.                                                                      Current
                           and equipment, and strengthening the delivery of
                           services
                           Monitoring of USAID-funded flood assistance              Current; completion expected
APEX Consulting
                           activities in Sindh                                      in November 2011
Community Uplift           Monitoring of USAID-funded flood assistance              Current; completion expected
Program                    activities in Balochistan                                in November 2011
                           Monitoring of USAID-funded flood assistance              Current; completion expected
Voice Tel Tech
                           activities in Punjab and Khyber Pakhtunkhwa              in November 2011
                           Support to families and communities that suffer
To be determined                                                                    Planning stage
                           losses as a result of military operations
Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its performance indicators, along with targets as available.

•	 Health camps established for flood victims (target as set forth in the agreement: 50 health camps).

•	 Increased availability of reproductive health supplies and services for flood-affected populations
   (target as set forth in agreement with UNFPA: 12 flood-affected districts supplied with life-saving
   reproductive health supplies, benefiting over 25,000 people).




                                                                                                                 16
•	 Provide measles vaccinations to children in flood-affected areas (target as set forth in the agreement:
   8 million; includes vaccinations for measles, polio, tuberculosis [Bacillus Calmette-Guérin], tetanus,
   and pentavalent).

•	 Supplementary livestock feeding and supplies (target as set forth in the agreement: 50,000
   beneficiaries in four provinces).

•	 Desilting of farm irrigation infrastructure (target as set forth in the agreement with the U.N. Food
   and Agriculture Organization [FAO]: 90,000 households in Balochistan assisted with desilting).

•	 Number of beneficiaries assisted by USAID-supported humanitarian assistance for victims of conflict
   and natural disasters (target: 11 million Pakistanis assisted through distribution of emergency relief,
   health supplies, and agricultural inputs to flood-affected farmers in Balochistan, Khyber
   Pakhtunkhwa, Punjab, and Sindh).

USAID also reported the following examples of progress and success in its immediate postcrisis and
humanitarian assistance programs:

•	 USAID’s $62 million in assistance to flood-affected, vulnerable farmers is achieving results in Khyber
   Pakhtunkhwa, Punjab, and Balochistan. In Khyber Pakhtunkhwa, for instance, program beneficiaries
   reported a 75 percent increase in wheat yield (1,750 kilograms per acre from 1,000 kilograms in the
   previous year) from the use of inputs provided under the program. The following factors
   contributed to the increase in yield: improved high-quality seed, high-quality fertilizer, timeliness in
   the delivery of USAID inputs, and frequent rains. Consequently, farmers can expect higher yields
   for at least the coming 3 years.

•	 The Firms Project is working with mango farmers to maximize their yields, improve product quality,
   and implement better handling and packaging techniques to reach new markets. Private-public
   partnerships were established with 15 farmers, with USAID providing mango-processing lines, blast
   chillers, and cold storage equipment under the agreement. A similar fifty-fifty cost-sharing
   arrangement assists farmers in acquiring Global Good Agricultural Practice (G.A.P.) certification,
   which will make their mangoes more competitive on the global market. The project has trained 273
   government agricultural extension workers and even more small farmers in rural Punjab and Sindh
   to improve orchard care and harvesting techniques. In the farms where the project has provided
   assistance and support, the following results have been achieved:

    −   Full-time employment for men increased from 284 to 328, and for women from 10 to 30.

    −   Part-time employment for men increased from 1,350 to 1,430, and for women from 70 to 100. 

    −   Average price per ton (local sales) increased from $23,897 to $26,757.

    −   Average price per ton (export sales) increased from $52,750 to $85,000.

    −   Value-added products, such as pulp and dried mangoes, were introduced.


•	 Last quarter, USAID completed its $2 million maternal and child health program focused on safe
   drinking water in flood-affected areas. The program, implemented by UNICEF, delivered substantial
   results. It reached 502,813 beneficiaries through 8,300 training sessions on water treatment along
   with the distribution of water treatment products.



                                                                                                          17
Focused Humanitarian and Social Services: Increased Access to and
Quality of Education and Health Services

This category of assistance aims to provide quality education and health services to underserved
populations, particularly those living in areas likely to come under the sway of extremist groups. In
education, programs intend to reconstruct damaged schools, improve facilities, bring more girls into the
classroom, and improve teachers’ skills. In health care, the goals are to improve maternal and child care;
provide family planning services; and prevent and treat diseases such as hepatitis, polio, and tuberculosis.
USAID is the primary U.S. Government agency contributing to this area of assistance; USDA and PAS
also manage programs in this area.

USAID has 20 programs to support education and health services—1 was recently completed, 16 are
under way, and 3 are in the planning stage. These programs focus on improvement in basic and higher
education, maternal and child health, family planning, and polio eradication. Table 5 lists USAID’s
programs for education and health.

     Table 5. USAID’s Programs for Education and Health Services as of June 30, 2011

   Implementing Partner              Program Description                              Status
                                 Involvement of religious leaders
Pathfinder International         in health and development,         Completed in June 2011
                                 extending service delivery
                                 Construction of a 360-bed          Current; signed follow-on agreement to
Forman Christian College
                                 women’s hostel                     build a women’s hostel on campus
                                                                    Current; ongoing for 2 years; 600 teachers
Education Development Center                                        received scholarships for training; more
                                 Pre-Service Teacher Education
(Replacement for the Academy                                        than 40 faculty members at a teacher-
                                 Program
for Educational Development)                                        training college being sent to the United
                                                                    States for Ph.D. degrees
                                                                    Current; 6,658 primary and middle school
                                                                    teachers trained, and 150 conflict-damaged
American Institutes for          Links to Learning—Education
                                                                    schools renovated in Malakand and 1,190
Research                         Support to Pakistan
                                                                    schools nationally; program is contributing
                                                                    to flood recovery
                                 Children’s Television Program      Current; first nationwide broadcast in Urdu
Rafi Peer Theatre Workshop       providing interactive teaching     scheduled for October 2011, incorporating
                                 and learning                       gender through lead female character, Rani
                                 Pakistan and U.S. Science and
National Academy of Sciences                                        Current; provided $5 million this quarter
                                 Technology Cooperation
American University              Collaborative capacity building
                                                                    Current
Washington College of Law        for human rights and gender
                                                                    Current; $42.5 million in rupees disbursed
                                 Budget support to Higher
Government of Pakistan                                              and agreement reached on program
                                 Education Commission
                                                                    content
                                 Fulbright scholarships (through
Government of Pakistan                                              Current; funding disbursed
                                 DOS)




                                                                                                                18
    Implementing Partner               Program Description                                 Status
                                   Family Advancement for Life and
                                                                        Current; activities in 26 districts in four
                                   Health Program for the
Population Council                                                      provinces to be completed in December
                                   diversification of family planning
                                                                        2011
                                   activities
                                                                        Current; contraceptive commodities ready
Commodities Supply and             Contraceptive commodities for
                                                                        for distribution to provinces and districts;
Logistics—multiple                 the Ministries of Health and
                                                                        working with warehouses to streamline the
implementing partners              Population Welfare
                                                                        supply and distribution system
                                                                        Current; commodity procurement plan
John Snow, Inc.                    Contraceptive logistic support       completed; software prepared for the
                                                                        logistic management information system
UNICEF, WHO                        Polio eradication initiative         Current; five polio campaigns conducted
Royal Netherlands Tuberculosis
                                   Tuberculosis Control Assistance
Association (Koninklijk                                                 Current; tuberculosis prevalence survey to
                                   Program and National
Nederlandsche Centrale                                                  be completed by December 2011
                                   Prevalence Survey
Vereeniging, or KNCV)
Centers for Disease Control        Pakistan Field Epidemiology and      Current; last group of epidemiologists to
and Prevention                     Laboratory Training Program          complete training this year
Health Services Academy of         Developing and strengthening         Current; working with Pakistani
Pakistan, Technical Advisory       institutional capacity in public     Government and provinces to prepare
Unit                               health training and research         Ministry of Health’s plan for devolution
                                   Improve children’s health in
Save the Children                                                       Current
                                   FATA
                                                                        Planning stage; in negotiations with Sindh to
                                   Basic education support to           include in program design the
Provincial Governments
                                   provincial governments               reconstruction of flood-affected schools,
                                                                        training, and capacity building
                                                                        Planning stage; the Government of Pakistan
National Institute of Population
                                   Demographic and Health Survey        approved the proposed activity and
Studies (Pakistan)
                                                                        planning document
                                   Maternal and child health, family
Government of Pakistan                                                  Planning stage
                                   planning, and immunizations

Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its performance indicators. USAID also noted that progress on the indicators may be
reported quarterly instead of results, because some results may take several quarters to achieve.
However, no information on progress on the indicators was reported for the fiscal quarter.

USAID identified the following approved FY 2011 indicators to be tracked and reported on:

•   Improved educational facilities.

•   Increased access to high-quality learning materials.

•   Improved student performance assessment.

•   Improved teaching skills of teachers.


                                                                                                                      19
•	 Increased supply of clean drinking water.

•	 Number of children under 5 who have received oral polio vaccine through U.S. Government
   support.

•	 Number of children under 1 who have received a measles vaccination through U.S. Government
   support.

USAID reported the following examples of progress and success in its education and health programs:

•	 Planning and implementation discussions involving USAID, the Ministry of Health, and provincial
   governments continue to ensure that Pakistani Government priorities are incorporated into all
   programmatic decisions.

•	 A new cooperative agreement has been signed with the Education Development Center as the
   primary implementing partner for the Pre-Service Teacher Education Program to continue the
   reforms initiated by the Academy for Educational Development when it managed the program. A
   subaward to the Teacher’s College at Columbia University for technical assistance has been
   completed.

•	 USAID signed an agreement with the Foreman Christian College to build a new 360-bed hostel for
   women on campus.

•	 USAID agreed with the Higher Education Commission on the uses of the $45 million cash transfer
   and signed a project implementation letter making $42.5 million in rupees available for use.

Despite the aforementioned successes, USAID reported problems that continue to affect the
implementation of its education and health programs:

•	 The Government of Pakistan does not have an approved health policy to guide and prioritize
   government or donor response to Pakistan’s needs, complicating the design of health programs.
   Although a draft national health policy document was finalized, the government still has not formally
   adopted it.

•	 As a result of the 18th Amendment to the Constitution of Pakistan, responsibilities in the health
   sector were to be devolved to provincial governments by June 30, 2011. However, the Ministry of
   Health has not yet clarified what will be devolved, when, and how. Guidance from the Government
   of Pakistan is insufficient on the expected roles and responsibilities of federal, provincial, and district
   government actors in the health sector. The Government of Pakistan is developing these operational
   procedures and practices, which differ among provinces because of differences in their institutional
   capacity.    With numerous government actors operating in this sector, challenges arise related to
   communication, coordination, and competition for funding.

USDA. USDA’s programming in this category consists of the Food for Education Program, which
supports increased access to and quality of education and health services. To implement the program,


                                                                                                           20
USDA awarded Land O’Lakes and the World Food Programme (WFP) grants totaling an estimated
$17 million to fund activities until June 2013. Under these two grants, USDA will supply an estimated
6,540 metric tons of commodities to feed schoolchildren and an estimated $6 million to implement
rehabilitation projects and capacity-building measures for schools. USDA signed a Food for Education
grant agreement with Land O’Lakes in early September 2010, and in late January 2011, Land O’Lakes
received its first year’s supply of cooking oil. In early March, the cooking oil was distributed to female
students in primary public schools as an incentive to families to send their daughters to school. The oil
was also distributed through health units in the Jacobabad District to pregnant and lactating mothers.

PAS. As previously reported, PAS has two major programs that contribute to increased access to and
quality of education services. PAS supports a $35.7 million slate of academic and professional programs
designed to provide enhanced educational and professional skills, leadership training, and connections
with the United States for more than 6,000 Pakistanis. These programs range from short-term (3-week)
International Visitor Leadership Program exchanges to full academic degree programs, including English
Access Microscholarships that reach thousands of disadvantaged youth. In addition, PAS sponsors a
$16.4 million program of Fulbright exchanges, which over a period of years should increase substantially
the number of faculty at Pakistani colleges and universities with master’s and doctoral degrees. With
the cancellation of PAS-managed infrastructure projects, PAS is working to transfer the remaining funds
to sustain its exchange programs and grants, including undergraduate and professional exchanges, for 1
to 3 additional years.

Government Capacity Development: Improved National and Local
Governance

Programs in this category are intended to build capacity at the national, provincial, and local levels—
particularly in targeted vulnerable areas—to provide basic municipal services, promote civil society
advocacy and oversight, improve the administration and conduct of elections, improve the
responsiveness of political parties, promote greater gender equity, and strengthen systems for
accountability and transparency in public expenditures. USAID, USDA, the U.S. Department of
Commerce (DOC), and PAS have programs to strengthen government capacity and improve
governance.

USAID has 26 programs to improve government capacity at the national and local levels—1 completed
during the quarter, 23 under way, and 2 in the planning stage. USAID’s programs in this category of
assistance support improvements in governance through a hotline for the public to register complaints
and assistance with developing an energy plan and energy and economic policy. USAID’s programs also
include civil society support. One program was cancelled this quarter when USAID consolidated its
portfolio of programs. Table 6 lists the status of USAID’s programs for national and local governance.




                                                                                                       21
           Table 6. USAID’s Programs to Improve National and Local Governance
                                   as of June 30, 2011

 Implementing Partner                   Program Description                                 Status
International Foundation for
                                Election Support Program                       Completed
Electoral Systems
Transparency International      Anti-Fraud Hotline                             Current
                                Anticorruption and Public Awareness
Transparency International                                                     Current
                                Program
                                                                               Current; data from second poll
International Republican
                                Three nationwide polls                         being collected; results to be
Institute
                                                                               compiled in late summer
                                                                               Current; 32 grants totaling $1.7
Aurat Foundation                Gender Equity Program                          million awarded to Pakistani
                                                                               Government and NGOs
                                                                               Current; 27 grants totaling $2.18
National Rural Support          Small Grants Program for unsolicited
                                                                               million awarded for community
Program                         proposals and Chief of Mission Fund
                                                                               initiatives
                                                                               Current; designing Phase II to
Development Alternatives,
                                FATA Capacity Building Program                 continue under new contract with
Inc.
                                                                               a Pakistani organization
                                                                               Current; funds providing technical
                                Pakistan Energy Indefinite Quantity
                                                                               assistance to support both the
International Resources         Contract to provide policy reform advisers
                                                                               Power Distribution Improvement
Group and WAPDA                 to support the USAID-Government of
                                                                               Program and the Tubewell
                                Pakistan energy partnership
                                                                               Efficiency Improvement Program
                                Power Distribution Improvement Program         Current; completed operational
International Resources
                                to improve management capacity, financial      audits and recommended
Group/Pakistan Electric Power
                                systems, billings, and collections of          improvement plans for Pakistan’s
Company
                                distribution companies                         eight distribution companies
Dairy and Rural Development     Dairy Development Initiative/Rural             Current; now introducing
Foundation (cofinanced by       Development Fund to improve milk               management systems to reduce
Nestle Pakistan and USAID)      production and marketing                       high-risk classification
                                Work with the Ministry of Petroleum and
U.S. Geological Survey          Natural Resources to assess conventional       Current
                                and unconventional gas reserves
                                Provide technical support for energy policy
                                and capacity building, and provide technical
Advanced Engineering
                                and engineering support for USAID-funded       Current
Associates International
                                infrastructure projects implemented by the
                                Pakistani Government
                                Improve production and marketing of
                                commodities, enhance Government of             Current; agreement signed and
USDA
                                Pakistan research and extension work, help     funds transferred to USDA
                                eradicate agricultural diseases
                                Improve customs procedures and Pakistani
                                                                               Current; approximately 25 percent
Deloitte Consulting, LLC        Commercial Service to increase exports
                                                                               of funds disbursed
                                and trade at the Afghan border
                                Competitive Support Fund advisers
                                                                               Current; funds being disbursed and
                                provide technical assistance on policy
Ministry of Finance                                                            preparations made for extension
                                decisions, regulatory frameworks, and
                                                                               through November 2011
                                public-private partnerships


                                                                                                               22
 Implementing Partner                  Program Description                                 Status
U.S. Department of the         Tax, debt, and banking regulation advisers    Current; funds transferred to U.S.
Treasury                       to the Government of Pakistan                 Treasury
Multiple implementing
                               Technical advisers embedded in Ministry of
partners (blanket purchasing                                                 Current
                               Health and provincial units
agreement)
U.S. Institute for Peace       Religious tolerance                           Current
Management Sciences            USAID/Pakistan missionwide monitoring         Current; contract awarded in
International                  and evaluation program                        June 2011
Trust for Democratic           Citizen Voice and Accountability Program      Current; awarded May 2011
Education and Accountability
                               Pakistan Strategy Support Program to
International Food Policy      strengthen evidence-based policy analysis     Current; agreement signed this
Research Institute             for food security and macroeconomic           quarter
                               stability
                                                                             In negotiations; applications
To be determined               Political Party Development Program           received; agreement in final
                                                                             negotiations
                               Building the election commission’s capacity
Election Commission of                                                       In negotiations; draft assistance
                               to maintain credible, accurate, and current
Pakistan                                                                     agreement under review
                               electoral rolls
                               Commercial Law Development Program to
U.S. Department of
                               provide advisers to support gem and           In negotiations
Commerce
                               mineral markets
Government of Pakistan,        Program to provide access to finance for
                                                                             Planning stage
Ministry of Finance            small and medium-sized enterprises
                               Media campaign to promote positive
To be determined               perceptions of the United States by
                                                                             Planning stage
(Pakistani organization)       improving Pakistanis’ awareness and
                               understanding of U.S. assistance activities
Ministry of Technology         eGovernance, National Data Center             Cancelled

Source: USAID/Pakistan.

In response to USAID OIG’s request for information on the progress of these programs, USAID
provided its performance indicators. USAID had also noted that progress on the indicators may be
reported quarterly instead of results, since some results may take several quarters to achieve.
However, no information on progress on the indicators was reported for the fiscal quarter.

USAID provided the following approved FY 2011 indicators to be tracked and reported on:
 
•	 Improved energy sector governance (one measurement being progress on the scorecard for the
   Electricity Governance Initiative Index).

•	 Improved economic governance.

•	 Improved governance of basic education.

•	 Improved governance of provincial health departments.


                                                                                                                 23
•	 Number of U.S. Government-assisted civil society organizations that demonstrate active
   participation in government decision-making processes.

In addition, USAID provided examples of progress and success in its governance assistance programs:

•	 The Small Grants Program through the Ambassador’s Fund distributed more than 27 grants totaling
   $2.18 million for community initiatives throughout Pakistan. Initiatives include improving local water
   systems, refurbishing schools affected by the 2010 floods, installing solar panels, conducting
   grassroots public health projects, and providing seeds and supplies to rural farmers.

•	 The Gender Equity Program awarded 32 grants totaling nearly $1.7 million to Pakistani NGOs and
   Pakistani Government organizations to support women in crisis, initiate research and devise a
   national strategy on gender-based violence, conduct awareness campaigns on women’s rights, and
   build the capacity of local groups to provide assistance such as expanded access to legal services.

•	 USAID awarded the Citizen Voice and Public Accountability Program, the last in its portfolio of civil
   society support programs, on May 27, 2011, to the Trust for Democratic Education and
   Accountability. The $45 million program will help support policy advocacy and government
   oversight, enhanced capacity of NGOs and citizen groups, and public-private connections to
   improve government accountability.

•	 USAID has negotiated a 4-year, $22.7 million agreement with the International Food Policy Research
   Institute to implement a Pakistan Strategy Support Program. The objective of the program is to
   provide analytical support and capacity building to promote national agricultural growth and food
   security.

•	 The Anti-Fraud Hotline received 1,303 complaints through various channels during the quarter and
   distributed promotional posters, pamphlets, and other materials to implementing partners and
   Pakistani Government agencies.

USAID also reported challenges to implementing its programs for improved governance:

•	 The political and security situation in Pakistan has caused delays in program implementation. For
   example, a program implemented by the Dairy and Rural Development Foundation to support
   smallholder dairy farmers, with a focus on women, was delayed for 6 months.

•	 As reported in September 2010, securing government buy-in in FATA remains a key challenge for
   any program focused on improving governance. Weak coordination among the Government of
   Pakistan’s civilian and military institutions is also an obstacle to coordinating actions and making
   progress.




                                                                                                      24
USDA. USDA manages three types of efforts to build Pakistani institutional capacity in the agricultural
sector:

•	 Endowments. Endowments support agricultural research and development activities in accordance
   with Pakistan’s long-term development goals and promote scientific cooperation between Pakistani
   and U.S. agricultural scientists. Since 2000, USDA has established six endowments totaling $56.7
   million.

•	 Exchanges. Exchange programs for technical assistance develop linkages between Pakistani scientists
   and their counterparts in the United States. USDA plans to expand the number and quality of
   exchanges between Pakistani and U.S. scientists to improve the capacity of Pakistan’s agricultural
   research system. USDA is currently reviewing exchange program proposals to implement in 2011.

•	 Trilateral meetings. The Trilateral (Afghanistan-Pakistan-United States) Secretariat on Agriculture was
   scheduled to meet in February 2011 in Washington, D.C. However, when diplomatic tensions
   flared in January 2011, the trilateral meeting was cancelled and has since been rescheduled for
   July 17, 2011.

DOC. DOC programs focus on trade and investment promotion and on developing commercial law.
In April 2011, DOC held a conference in Islamabad promoting investment in alternative energy sources.
In May, DOC sponsored a 12-member delegation traveling to the United States to participate in
Windpower 2011, a conference and exhibit for wind industry professionals, experts, leaders, decision
makers, and researchers. DOC also reported that the attorney advisor for the Commercial Law
Development Program visited Pakistan for a week-long judicial capacity-building program for civil and
district and sessions judges of Pakistan.

PAS. PAS continues to contribute to government capacity building through its administration of
exchange programs. These exchanges are for midcareer government professionals and include graduate
degree programs for Pakistani diplomats, internships for journalists, and special International Visitor
Leadership Programs for government spokespersons and water resource managers. PAS also reported
the cancellation of the project to build a National Data Center for Pakistan; likewise, PAS is no longer
managing the legal infrastructure component for a modern telecommunications regulatory policy.

Government Capacity Development: Improved Security and Legal
Institutions

This category targets areas prone to conflict and those with a weak government presence. Assistance
focuses on improving policing and expediting the disposal of legal cases through the court system. The
U.S. Embassy’s Narcotics Affairs Section (NAS), Regional Security Office (RSO), and PAS support
assistance programs in this category.

NAS. As previously reported, NAS, in coordination with other U.S. law enforcement agencies in
Pakistan, manages five programs that support improved security and legal institutions. These programs


                                                                                                       25
address counternarcotics, border security and related infrastructure, law enforcement reform through
police and prosecutor training, and support for the Ministry of Interior’s Air Wing. According to NAS,
all of its projects are implemented in partnership with the Government of Pakistan, and the
infrastructure projects use Pakistani contracting mechanisms.

NAS and the Government of Pakistan signed 12 project implementation letters totaling nearly $30.2
million. The funds will support the provision of equipment for the Islamabad, Sindh, and Khyber
Pakhtunkhwa Police, as well as the Women’s Police program. The funds will also support equipment and
construction of prefabricated barracks in FATA.

To measure the progress of its new programs, NAS identified the following performance indicators:

•	 Amount of equipment delivered
•	 Time for equipment to arrive at port of entry

In addition to describing its new programs, NAS reported the following successes for its current
programs:

•	 Number of hours flown by the Air Wing under the aviation program. During the quarter, the Air Wing
   program logged 863 hours. Missions of note included support of Pakistan Anti-Narcotics Force
   operations along the Iran and Afghanistan borders; support in Balochistan and in Khyber
   Pakhtunkhwa of the Frontier Corps, a paramilitary force recruited mostly from tribal areas and led
   by officers in the Pakistan Army; aerial surveillance in the cities of Islamabad, Lahore, Multan,
   Karachi, and Peshawar; and missions to support visits by several congressional delegations and the
   U.S. Ambassador.

•	 Number of kilometers of road constructed and percentage of other infrastructure projects completed under
   the infrastructure program. A counternarcotics road is under construction in the Prang Ghar region
   of Mohmand Agency. In Khyber Agency, construction of the Mattani Bypass and Landi Kotal Bypass
   roads is under way. In April 2011, work began on the Kanju-Madyan Road in Swat. Construction
   continues on three Swat Valley police stations—Mingora, Rahimabad, and Kabul—projected to be
   finished in September 2011.

•	 Number of law enforcement officials trained, number of prosecutors trained. During the reporting period,
   201 law enforcement officials from across Pakistan received training on topics ranging from basic
   criminal investigations to training management. Sixty prosecutors in Khyber Pakhtunkhwa and Sindh
   provinces were trained in trial advocacy and counterterrorism prosecution through seminars
   provided by the Resident Legal Advisor and by guest lecturers, all of whom are practicing U.S.
   federal prosecutors and judges.

•	 Amount of equipment delivered under the Civilian Law Enforcement Reform Program. NAS delivered $5.1
   million worth of equipment, including 4,600 ballistic vests, for FATA security forces.




                                                                                                        26
NAS reported that although its programs are making progress, challenges have slowed implementation:

•	 The U.S. Embassy directed the return of all aircraft to Quetta and their subsequent grounding when
   threats against and harassment of NAS local staff in Quetta prohibited employees from reporting to
   work. The aircraft will remain grounded until the Embassy and the Government of Pakistan agree
   on a way to proceed that ensures employee and program security.

•	 Police facilities across the country continue to be targeted, with police trainers coming under
   suspicion. Police trainers’ names and passport numbers have been leaked to the press in articles
   alleging that the trainers are spies. NAS continues to monitor threat reporting closely and take
   every possible precaution to ensure the safety of police instructors.

•	 Safe training facilities are also a concern. Like other police facilities, police academies and training
   sites are targets for terrorist attacks. NAS reported that the risk of such an attack increases when
   American instructors are present. The lack of secure training space severely limits the training NAS
   can provide. Political tensions have made access to the Police Training Center in Chung, Punjab,
   problematic. This quarter PAS reported some success identifying training venues for the Sindh
   police program.

•	 The Government of Pakistan continues to backslide on efficient issuance of visas for NAS program
   staff. In particular, visas issued this quarter to police trainers continue to limit their stay in Pakistan
   to 30 days. In addition to the visa problem, clearances for access to the Air Wing compound are
   tightly controlled and often denied by the Frontier Corps-Balochistan.

RSO. The RSO at the U.S. Embassy in Islamabad contributes to improving security and legal institutions
through its antiterrorism assistance. The RSO provides a full range of tactical and investigative courses
and support to Pakistani federal and provincial law enforcement agencies, especially those operating in
Khyber Pakhtunkhwa and Balochistan.

PAS. PAS also contributes to this category of assistance by supporting exchange programs. These
include short-term visits for Pakistani border control officers to meet and work with their counterparts
in the United States, strengthening partnerships and exchanging ideas.

Assistance to Pakistani Institutions

To ensure greater Pakistani responsiveness and increase the sustainability of civilian programs, the
United States plans to implement more programs through Government of Pakistan institutions, including
national and provincial governments and NGOs.6 The purpose of this shift is to:



                                                            
6
   The Enhanced Partnership with Pakistan Act of 2009 encourages the use of Pakistani firms and NGOs, as
appropriate, to implement the democratic, economic, and development assistance programs authorized under
Title I of the act (Section 101(c)(3)).


                                                                                                           27
•	 Align programs with locally identified priorities.
•	 Build Pakistanis’ sense of ownership of programs.
•	 Build Pakistani institutional and leadership capacity for better fiscal management.
•	 Promote decentralization to more actively engage provincial and local partners and beneficiaries.
•	 Deliver on-budget assistance7 to promote transparency, harmonization, and better budget planning
   by the Government of Pakistan.
•	 Reduce costs.

According to USAID, it made 61 awards totaling nearly $1.268 billion during FY 2010; during the first 9
months of FY 2011, it made an additional 32 awards totaling nearly $406.6 million to Pakistani
institutions (Table 7). USAID reported making six awards totaling approximately $222.9 million during
the reporting period. Awards made by USAID fall into one of the following four categories: budget
support (cash transfers), direct funding for federal government projects, direct funding for provincial
government projects, and awards to Pakistani NGOs.

Prior to disbursing funds, however, USAID’s Office of Financial Management performs preaward
assessments of all prospective partner organizations. The assessments examine organizational and
management structure, accounting, financial management systems, internal controls, technical
capabilities, and quality assurance capabilities, as well as the organizations’ policies, procedures, and
practices for effective and efficient management of USAID/Pakistan resources.

To date, USAID has completed 108 preaward assessments. USAID also reported that it had two
assessments under way, one for the Ministry of Information Technology and the other for the Auditor
General of Pakistan.

                         Table 7. Assistance to Pakistani Institutions Since October 1, 2010

                                                                  Number                 Value($)
                                                  Type              of                      of
                                                                  Awards                Obligations
    Budget Support* (Cash Transfers)                                   1               190,000,000

    Citizen’s Damage Compensation Program†                             1                190,000,000

    Direct Funding for Federal Government Projects                   12                142,085,622

    Higher Education Commission for Merit and Needs-based
                                                                       1                  1,500,000
    Scholarship Program

                                                            
7
  Delivering U.S. assistance through Pakistan’s own budgetary, spending, and accounting systems as much as
possible will help the Government of Pakistan meet the fiscal targets required by the International Monetary Fund
and raise Pakistanis’ awareness of where U.S. funds are going and how they harmonize with resources from the
Government of Pakistan and other donors. On-budget assistance should also help reduce disruptions in
implementation by enabling federal and provincial governments to improve budget planning and cash-flow
management.

                                                                                                              28
                                                                 Number    Value($)
                            Type                                   of         of
                                                                 Awards   Obligations
Gomal Zam Multi-Purpose Dam, WAPDA                                  1      40,000,000

Satpara Multipurpose Dam, WAPDA                                     1      26,000,000

Tank-Kaur and Kaur-Jandola Road, FATA Secretariat                   1       5,124,925

Wana Grid station upgrade, FATA Secretariat                         2       5,800,000

Kaur-Gomal-Tanai-Wana Road, FATA Secretariat                        1      33,600,000
Reactivation and rehabilitation of damaged transformers, FATA
                                                                    1       8,800,000
Secretariat
Swat widening/improvement of FATA Road, FATA Secretariat            1       8,856,631

Malakand Reconstruction and Recovery Program†                       2      11,154,066

Competitiveness Support Fund†                                       1       1,250,000

Direct Funding for Provincial Government Projects                   1      6,250,000

Southern Punjab Basic Education Program                             1       6,250,000

Awards to Pakistani NGOs                                           18     68,268,230

Ambassador’s Fund – National Rural Support Program (small
                                                                    1       5,000,000
grants and incremental funding)
Transparency International, Anticorruption Program Pakistan II
                                                                    1         40,000
(incremental funding)
Habib-Rafique (Pvt.) Ltd./ CDM Constructors, Inc.,
                                                                    1        464,359
Parliamentary Institute Building
Dairy and Rural Development Foundation (smallholder dairy
                                                                    1       2,500,000
project)
Khushhali Bank, disbursement agent for Tubewell Efficiency
                                                                    1      13,624,581
Improvement Program
Voice Tel Tech, assessment of monitoring and evaluation of
                                                                    1        149,080
cash transfers

Apex Consulting, monitoring of OFDA flood relief in Sindh           1        149,480

Community Uplift Program, monitoring of OFDA flood relief
                                                                    1        149,009
in Balochistan
Key Chain Films, production of videos on development
                                                                    1         50,000
activities
KPMG Taseer Hadi & Co., accelerated capacity building of the
Provincial Reconstruction, Rehabilitation and Settlement            1        710,413
Authority (modification)
Rural Support Programmes Network, Sindh Agriculture
                                                                    1      15,000,000
Recovery Project

                                                                                        29
                                                                     Number                  Value($)
                                Type                                   of                       of
                                                                     Awards                 Obligations
    Voice Tel Tech, monitoring of OFDA flood relief in Khyber
                                                                          1                       147,085
    Pakhtunkhwa
    Voice Tel Tech, monitoring of OFDA flood relief in Punjab             1                       147,085

    Associates in Development, Assessment and Strengthening
                                                                          1                      1,642,550
    Program
    Lahore University of Management Sciences, Assessment and
                                                                          1                      3,856,775
    Strengthening Program
    Rural Support Programmes Network, Assessment and
                                                                          1                      4,100,675
    Strengthening Program

    Aurat Publication and Information Services Foundation†                1                     12,537,138

    Trust for Democratic Education and Accountability†                    1                      8,000,000

    Total                                                                32                406,603,852

Source: USAID/Pakistan.
* For budget support, U.S. assistance funds are comingled with other budgetary resources available to the Pakistani
Government, and accounting for how the U.S. funds have been used is not possible. For project assistance, U.S.
funds are normally segregated in separate bank accounts, and the Pakistani Government is required to keep books
and records that show how assistance funds are spent.
†   Awards made to Pakistani institutions during the reporting period, April 1–June 30, 2011.




                                                                                                                30
Staffing 

The U.S. Mission in Pakistan—including USAID and Embassy components8—increased staffing levels at
regional offices in Peshawar and Lahore, maintained its staffing level at the regional office in Karachi, but
experienced a decrease in staffing in Islamabad.

As shown in Table 8, USAID reported a total of 226 staff (50 U.S. direct hires and 176 others) as of
June 30, 2011. Since the last quarterly report, the mission’s on-board staff has decreased by nine
members because of transfers and summer rotations. However, with an FY 2011 target of 296 staff,
USAID/Pakistan remains understaffed by 70 positions. According to the Pakistan Assistance Strategy
Report, USAID, as the lead and largest manager of assistance funds among U.S. Government agencies,
will need to increase its project management, legal, financial management, and procurement staff
significantly.

                                     Table 8. USAID Staffing in Pakistan as of June 30, 2011

                                                                                                         Difference from
                Category                          Islamabad        Peshawar   Lahore   Karachi   Total
                                                                                                         March 31, 2011

    U.S. direct hire                                       45          2        2         1        50          -7
    U.S. staff from other                                      0       0        0         0         0           0
    departments and
    agencies
    U.S. personal services                                 15          5        1         0        21          +1
    contractors
    Third-country nationals                                    7       1        0         0         8          0


    Foreign Service Nationals                              97         23        9         5       134          +2
    (Pakistani staff)

    Eligible family members                                    5       0        0         1         6          0
    Long-term temporary-                                       7       0        0         0         7          -5
    duty staff*
    Total Staff                                          176          31        12        7       226          -9
    Staff Target 2011                                                                             296
    Staff Shortfall                                                                   70
    * USAID/Pakistan reported that long-term temporary-duty staff (defined as being in Pakistan for a year) filling
    vacant positions counted toward the total number of USAID/Pakistan positions.




                                                            
8
  NAS reported that it had up to 130 staff and contractors on board as of June 30, 2011, including 6 U.S. direct
hires. PAS reported that it had 21 direct hires on board as of that date.

                                                                                                                       31
Risks and Mitigation Strategies 

U.S. Government agencies and oversight entities identified risks that could jeopardize the U.S.
Government’s assistance program in Pakistan and identified accompanying mitigation strategies. The
following three risks were particularly relevant during the quarter:

•	 Political risks. Pakistan continued to experience political, economic, and security-related turmoil.
   Such turmoil can limit the progress by the Government of Pakistan and the U.S. Government in
   delivering an effective assistance program.

•	 Terrorist threats. Public reaction to recent events in Pakistan could intensify the threat of terrorism,
   undermining civilian assistance efforts. To prevent terrorist attacks in Pakistan and elsewhere, the
   United States recently released its National Strategy for Counterterrorism (part of the larger U.S.
   National Security Strategy). The ultimate objective of the strategy is to “disrupt, dismantle, and
   ultimately defeat al-Qa’ida—its leadership core in the Afghanistan-Pakistan region, its affiliates and
   adherents.”9

•	 Operating restrictions. Implementation and monitoring of USAID projects have been hindered
   recently by stricter Government of Pakistan requirements for travel outside of Islamabad and
   provincial capitals. Staffing has been hampered by the denial of visas and visa extensions for U.S.
   Government employees, and increasingly USAID personnel have been harassed by local authorities.

Other previously identified challenges facing the civilian assistance program include the following:

•	 Resistance to economic reform. Entrenched interests may resist policy reforms needed to transform
   the economy. According to USAID, if Pakistan does not implement fundamental reforms, assistance
   from the United States and other donors will have limited long-term effects.

•	 Reprogramming of funds for flood recovery. The United States pledged to direct roughly $500 million of
   its budget toward flood recovery to promote early recovery and the replacement of damaged
   infrastructure. However, when previously planned projects are postponed or eliminated, the
   assistance program loses momentum in planning and implementation, frustrating some Pakistani
   stakeholders. To address this concern, the Government of Pakistan and the U.S. Government have
   coordinated reprogramming to maintain resources for the highest-priority programs and activities in
   support of mutually agreed-on developmental and humanitarian assistance priorities. This quarter,
   USAID notified Congress of the flood recovery and reconstruction programs to be supported with
   FY 2010 funds; $136 million in FY 2010 funds is pending final congressional approval.

•	 Flood-related insecurity. The floods affected more than 20 million Pakistanis, and many are still living in
   camps made up of temporary shelters, where disillusionment can lead to instability.


                                                            
9
    White House, “Fact Sheet: National Strategy for Counterterrorism,” June 29, 2011.


                                                                                                           32
•	 Vulnerability to natural disasters. Pakistan is prone to earthquakes and flooding, which hinder the
   implementation of projects in disaster-affected areas. USAID has ongoing efforts to strengthen the
   capacity of the National Disaster Management Agency to respond to disaster and reduce disaster
   risk.

•	 Adverse environmental impact. USAID/Pakistan conducts environmental assessments before disbursing
   funds for projects. To build a road in South Waziristan from Tank to Wana to Makeen, for
   example, the mission conducted an assessment and will take the necessary steps to mitigate the
   environmental concerns it highlighted before building portions of the road.

•	 Leadership turnover. Turnover is high in entities of the Government of Pakistan that deal with
   agriculture and in economic and social service ministries. Such turnover affects planning,
   coordination, and implementation of programs. USAID will continue to work closely with all
   government counterparts as necessary to ensure coordination and implementation of agricultural
   programs.

•	 Limited institutional capacity. Limited institutional capacity—especially in FATA, Khyber Pakhtunkhwa,
   and Balochistan—means extra efforts must be made to mitigate the risk of resources being lost
   through inefficiency, theft, or general lack of capacity to handle large amounts of funding.

•	 Inadequate financial management in Government of Pakistan institutions. The U.S. Government and the
   Government of Pakistan have collaborated to introduce special accounts for U.S. budget support
   assistance to address financial challenges and to maintain a high degree of accountability. However,
   financial management, accountability, and reporting challenges continue.

•	 Security risks. Security concerns continue to reduce the ability of U.S. Government personnel to
   conduct direct monitoring and evaluation in conflict-affected areas, particularly Peshawar, FATA, and
   Khyber Pakhtunkhwa, and to engage Pakistani officials in project design.

As described above, security is an ongoing challenge that limits the ability of civilians to provide
assistance in certain vulnerable areas, as well as USAID’s ability to monitor and evaluate programs.
USAID is meeting the challenge by expanding its regional offices in Peshawar and Lahore and its use of
Pakistani firms to conduct site visits. In addition, USAID/Pakistan recently awarded a missionwide,
independent monitoring and evaluation contract to Management Sciences International. Services
provided under the contract include routine monitoring, training on data entry for project performance,
mapping using a geographic information system, and conducting evaluations and assessments.

To maximize aid effectiveness and sustainability, USAID/Pakistan is committed to providing assistance
through Pakistani institutions. Many of these new partner institutions have limited capacity to plan and
implement projects because of limited staff or a lack of experience with U.S. Government requirements
for financial management. To address this concern, USAID/Pakistan is supporting technical advisers and
units within government ministries receiving USAID funding to help manage specific programs and
mentor ministry staff. Moreover, USAID is funding public accounting firms to conduct preaward
assessments to help ensure that potential recipients of USAID assistance meet U.S. transparency and


                                                                                                      33
accountability standards. These assessments also determine the capacity needs of potential partners so
that USAID can work with them to build those capacities.10 In addition, USAID increasingly relies on
fixed-amount reimbursement as a mechanism to disburse funding to Pakistani institutions. This
mechanism requires progress to be achieved before funding is released to the implementing partner.

In addition to these USAID strategies, USAID OIG has taken the following steps to ensure that U.S.
Government funds are protected against waste and theft:

•	   Establishing field offices in Pakistan for the USAID and DOS OIGs. As of June 30, 2011, USAID OIG had
     14 permanent staff in Islamabad (9 U.S. direct hires and 5 Foreign Service National employees),
     supplemented by staff on temporary duty. To support its Pakistan portfolio, DOS OIG established
     its field office at the U.S. Embassy in Islamabad last October.

•	 Conducting risk assessments of awards to U.S.-based entities working in Pakistan. In FY 2010, USAID OIG
   conducted risk assessments of 18 awards to prioritize financial reviews of U.S. entities operating in
   Pakistan. Of the 18 awards, auditors considered 5 to be high risk and suggested that
   USAID/Pakistan conduct financial reviews of those implementing the high-risk awards. To date, two
   financial reviews have been completed, one is planned, and two were canceled (the awards were
   terminated early).

•	 Expanding the use of independent Pakistani public accounting firms to conduct financial audits of funds
   provided to Pakistani NGOs. As of June 30, 2011, USAID OIG had a roster of 25 eligible audit firms in
   Pakistan to call on. Since the passage of the Enhanced Partnership with Pakistan Act on October 15,
   2009, USAID OIG has added 14 audit firms to its list of eligible audit firms in Pakistan.

•	 Providing training to Pakistani public accounting firms and to the Office of the Auditor General. The training
   covers standards and requirements for financial audits of U.S. Government funds. As of June 30,
   2011, USAID OIG had provided training to 21 public accounting firms (42 participants) and 16
   nongovernmental organizations (31 participants)—totaling 73 participants in FY 2011. Last year,
   USAID OIG provided training to 21 auditors from the Office of the Auditor General.

•	 Providing training to USAID’s contracting and agreement officers’ technical representatives and financial
   analysts. The training covers the standards and requirements for financial audits of U.S. Government
   funds. As of June 30, 2011, USAID OIG had provided four training seminars to 52 staff members
   working at USAID/Pakistan. USAID OIG also trained 26 staff from ten provincial government
   ministries in FY 2011.

•	 Helping the Office of the Auditor General conduct financial audits. USAID OIG helps the office conduct
       financial audits of funds provided by USAID/Pakistan to Pakistani Government entities by reviewing
       the statement of work between the mission and the Office of the Auditor General for each audit
       conducted, attending entrance and exit conferences, reviewing the Auditor General’s audit program,
       and approving the draft and final reports to ensure that the audits were performed in accordance
                                                            
10
   On May 6, 2011, USAID OIG issued an audit of USAID/Pakistan’s management of preaward assessments. The
findings are presented on page 36.


                                                                                                              34
       with government auditing standards. USAID OIG continues to meet monthly with the Auditor
       General to review the status of ongoing audits.

•	 Working with Pakistan’s National Accountability Bureau (NAB).11 USAID OIG established a working
   relationship with NAB in early 2010 and continues to coordinate efforts and collaborate on
   investigations.

•	 Collaborating with USAID/Pakistan to establish the Anti-Fraud Hotline in Pakistan. As the only one of its
   kind in Pakistan, the hotline provides a unique and useful tool for the people of Pakistan to provide
   feedback to USAID, its implementing partners, and the Government of Pakistan. This quarter, the
   hotline received 1,303 complaints through various channels—e-mail, Internet, facsimile, mail, and in
   person. These complaints relate to projects funded by USAID and by other organizations, including
   the Pakistani Government, bilateral donors, and international organizations.

•	 Providing fraud-awareness briefings and expanding investigatory coverage. During the reporting period,
   OIG special agents in Pakistan gave two fraud-awareness briefings attended by 19 USAID, U.S.
   Consulate, and contractor personnel.

•	 Coordinating audits and investigations with other U.S. agencies. USAID OIG works with other OIGs, the
   Government Accountability Office (GAO), and law enforcement agencies including the FBI’s
   International Corruption Unit, the National Procurement Task Force, the Financial Crimes
   Enforcement Network, and the U.S. Embassy’s Legal Attaché Office.




                                                            
11
  NAB is the primary law enforcement agency in Pakistan responsible for investigating white-collar crime and
public corruption, and it is Pakistan’s only law enforcement agency authorized to conduct investigations in FATA.

                                                                                                              35
Oversight Status
USAID Office of Inspector General

USAID OIG oversees foreign assistance programs administered by USAID, the United States African
Development Foundation, the Inter-American Foundation, and the Millennium Challenge Corporation.
USAID OIG has strengthened its focus on Pakistan since USAID reopened its Pakistan mission in 2002.
In recent years, OIG has covered a wide array of USAID programs in Pakistan, for relief and
stabilization, reconstruction, sustainable development, education, and health care. USAID OIG’s
oversight activities include performance audits, financial audits, and investigations.

Work Completed Since April 1, 2011

From April 1 through June 30, 2011, USAID OIG completed two performance audits and four financial
audits:

•	 Audit of USAID/Pakistan’s Management of Preaward Assessments (Audit Report No.
   G-391-11-004-P, May 6, 2011). The audit determined that USAID/Pakistan’s preaward process
   provided a reasonable basis for identifying significant financial management vulnerabilities; however,
   the audit noted weaknesses in the mission’s management of the preaward process. The weaknesses
   included the lack of prioritization or follow-up on significant vulnerabilities identified in assessments.
   Specifically, eight audited assessments contained more than 250 weaknesses in the recipients’ ability
   to manage funds, yet only 55 weaknesses were incorporated in agreements as special award
   conditions. Furthermore, USAID/Pakistan did not ensure that recipients corrected significant
   vulnerabilities before receiving funding, placing U.S. Government resources at higher risk for fraud,
   waste, and abuse. The report contained four recommendations.

•	 Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under
   the Quick Impact Projects in South Waziristan (Audit Report No. G-391-11-005-P,
   June 20, 2011).         This audit determined that USAID/Pakistan’s road rehabilitation and
   reconstruction activities under the Quick Impact Projects in South Waziristan were on track.
   Despite some difficulties noted with mission operations, two sections of road totaling 215
   kilometers had been completed and met all specifications and approvals required for reimbursement
   by USAID. USAID/Pakistan’s increase in technical capacity to oversee projects and the use of fixed-
   amount reimbursement agreements to reduce common risks associated with road reconstruction
   significantly contributed to the success of the road activities. However, the audit also found that for
   progress to continue on the road rehabilitation and reconstruction activities, USAID/Pakistan needs
   to tailor a capacity-building contract and to ensure compliance with regulations on conducting
   environmental assessments, enforcing business ethics and conduct codes; maintaining government
   contract files; and branding and marking. The report contained nine recommendations.




                                                                                                          36
•	 Closeout Financial Audit of the Program “Interactive Teaching & Learning Project,”
   USAID/Pakistan Cooperative Agreement No. 391-A-00-06-01075-00, and Financial
   Audit of Program “Links to Learning Education Support to Pakistan,” Sub-Award
   Under USAID/Pakistan Cooperative Agreement No. 391-A-00-08-01100-00, Managed
   by Children’s Global Network Pakistan Limited, for the Period From July 1, 2008, to
   February 26, 2010 (Audit Report No. G-391-11-002-R, April 8, 2011). The audit covered
   incurred costs of $1,315,348. The audit concluded that, except for the effects of the questioned
   costs of $12,669 (which were unsupported), the fund accountability statement presented fairly, in all
   material respects, program revenues and costs incurred under the agreements for the period
   audited. The audit identified three material instances of noncompliance and one material weakness
   in internal control associated with the questioned costs. The audit report made three
   recommendations.

•	 Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
   Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund,
   for the Period July 1, 2009, to June 30, 2010 (Audit Report No. G-391-11-003-R,
   May 10, 2011). The audit covered incurred costs of $2,184,844. The audit concluded that, except
   for the effects of the questioned costs of $731 (which were ineligible) and $2,091 (which were
   unsupported), the fund accountability statement presented fairly, in all material respects, program
   revenues and costs incurred under the cooperative agreement for the period audited. In addition,
   one material instance of noncompliance and three significant deficiencies in internal control were
   noted. The audit report made two recommendations.

•	 Financial Audit of USAID/Pakistan’s Rupee Trust Fund, for the Period From
   October 1, 2006, to September 30, 2009 (Audit Report No. G-391-11-001-N,
   May 26, 2011). The audit covered incurred costs of $1,511,547 for the 3-year period ending
   September 30, 2009. The audit concluded that, except for three material internal control
   weaknesses, the fund accountability statements presented fairly, in all material respects, funds
   received and costs incurred under the agreement. The three material weaknesses in internal
   control were that the Phoenix accounting system did not have separate ledgers for investments,
   receipts from the Government of Pakistan, and interest earned; certain investments, once matured,
   were not being reinvested immediately, resulting in a loss of potential investment income; and
   interest income from the bank was not recorded timely in the books of the trust fund for the year
   2009. The audit report made two recommendations.

•	 Closeout Financial Audit of the Forman Christian College for the Development of a
   Four-Year Bachelor Degree Program and Strengthening Programs in Basic Science and
   Information Technology, for the Period July 1, 2009, to March 31, 2010 (Audit Report
   No. G-391-11-004-R, June 23, 2011). The audit, which covered incurred costs of $1,800,000,
   concluded that, except for the effects of the questioned costs of $122,515 (which were ineligible),
   the fund accountability statement presented fairly, in all material respects, program revenues and
   costs incurred under the cooperative agreement for the period audited. The ineligible costs
   pertained to equipment purchased but not available for physical verification. The audit report made
   one recommendation.


                                                                                                     37
Work Under Way

As of June 30, 2011, USAID OIG had three performance audits and four financial audits in process:

•	 Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program.
   This audit will determine whether the program is constructing and renovating community
   infrastructure to improve the delivery of basic human services such as education, health care, water
   supply, sanitation, electricity, and transportation, as well as to promote economic growth in
   Pakistan’s rural areas.

•	 Audit of USAID/Pakistan’s Firms Project. This audit will determine whether the project is
   achieving its main goal: to expand economic opportunities through sales and employment.

•	 Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program. This audit will
   determine whether the program is promoting energy efficiency and conservation and building the
   capacity of public sector organizations to better address the needs of the energy sector.

•	 Financial Audit of USAID Funds Managed by the Ministry of Finance, Government of
   Pakistan, for the Education, Health, and Clean Drinking Water Budget Lines, for the
   Period June 15, 2007, to June 30, 2008, and for the Government of Pakistan Rural
   Landless Compensation Policy Budget Line, for the Period June 15, 2007, to
   December 31, 2009.

•	 Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement for
   Internally Displaced Persons, for the Period July 1, 2009, to June 30, 2010.

•	 Financial Audit of USAID Funds Managed by the Higher Education Commission Under
   the Merit and Needs-based Scholarship Project, for the Period July 2, 2004, to
   June 30, 2010.

•	 Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economics Affairs Division) Under the Cash Transfer Grant Agreement for
   the Benazir Income Support Program, for the Period July 1, 2009, to June 30, 2010.

Work Planned for the Remainder of FY 2011

For the remainder of FY 2011, USAID OIG expects to conduct one performance audit and two financial
audits:

•	 Audit of USAID/Pakistan’s Emergency Cash Transfer Program – University and
   Technical Education Component. This audit will determine whether funds provided to the
   Government of Pakistan under the University and Technical Education Component of this program
   are being used for their intended purpose of providing budget support.




                                                                                                    38
•	 Audit of USAID/Pakistan’s Fiscal Year 2011 Consolidated Financial Statements. This
   audit is part of the worldwide audit of USAID’s consolidated financial statements. At the end of the
   testing, OIG/Pakistan will submit a summary memo of the procedures performed and the results
   obtained to OIG/Washington.

•	 Financial Audit of USAID Funds Managed by the Pakistan Higher Education
   Commission for the Ministry of Economic Affairs and Statistics Under the Cash
   Transfer Agreement, for the Period September 30, 2009, to June 30, 2010.

Anti-Fraud Hotline and Investigative Work

Also during the reporting period, USAID OIG continued to receive complaints through the Pakistan
Anti-Fraud hotline. Hotline calls led to challenges of violations of Pakistan’s public procurement rules
and to investigations that resulted in terminations and a referral. USAID OIG closed 11 investigations
during the reporting period and has 19 open cases.

As the only one of its kind in Pakistan, the Anti-Fraud Hotline gives the people of Pakistan a tool to
provide feedback to USAID, its implementing partners, and the Government of Pakistan. Since its
introduction in February 2011, the hotline has been widely advertised in media including television,
radio, newspapers, and billboards and has been very successful. As a result, the hotline has received a
large volume of complaints related to service delivery as well as numerous requests for humanitarian
assistance.

This quarter, the hotline received 1,303 complaints through various channels. These complaints relate
to projects funded by USAID, the Pakistani Government, bilateral donors, and international
organizations. The vast majority involve flood relief efforts in the provinces of Sindh, Khyber
Pakhtunkhwa, Punjab, and Balochistan. While nearly 50 percent of the complaint calls did not indicate a
specific province, 34 percent pertained to Sindh Province, 9 percent to Punjab Province, and 3 percent
to Khyber Pakhtunkhwa Province.

When the hotline receives complaints about programs not under the direct responsibility of USAID,
staff members refer the complaints to the appropriate organizations for resolution or disposition as
those organizations deem necessary and appropriate. USAID OIG and the hotline staff continue to
develop methods to refer complainants quickly to the proper organization. During this reporting
period, staff referred 342 complaints, as detailed below:

•	 160 complaints to the WFP, which manages these USAID-funded projects. All of these complaints
   were about the same NGO.

•	 81 complaints to USAID implementing partners.

•	 38 complaints to the FAO for non-USAID-funded programs.

•	 63 complaints to international organizations other than FAO and NGOs for non-USAID-funded
   programs.


                                                                                                     39
By following up on hotline calls, USAID OIG’s Investigations team achieved the following results:

•	 Complaints Filed Under Pakistan Public Procurement Rules of 2004. In accordance with
   the cooperative agreement between USAID/Pakistan and Transparency International-Pakistan, the
   hotline processes complaints alleging violations of the Pakistan Public Procurement Rules under
   USAID-funded projects. These rules apply to all procurements made by Government of Pakistan
   agencies. When complaints come in to the hotline, Transparency InternationaI-Pakistan prepares a
   letter lodging a complaint which is sent to the head of the agency in question, the Public
   Procurement Regulatory Authority, the Auditor General of Pakistan, the National Accountability
   Bureau, the Supreme Court of Pakistan, and USAID OIG. The procedures set forth in the Public
   Procurement Rules are then followed to resolve the issue. To date, three public procurements
   have been challenged under this process.       One procurement was cancelled and retendered;
   however, a second complaint has now been lodged on the retendered procurement and is pending.
   Responses to the two remaining complaints are pending from the appropriate agency under the
   Pakistan Public Procurement Rules.

•	 Ten NGO Personnel Terminated for Misconduct in Flood Relief Efforts. During spring
   2011, the hotline received more than 100 complaints regarding problems with service delivery or
   criminal misconduct by employees of a Pakistani NGO. The NGO is involved in the distribution of
   USAID-funded food items for the WFP in Sindh Province. Using the hotline information, OIG
   initiated a joint investigation with WFP. To date, the investigation has revealed that internal
   controls over the issuance of tokens used to obtain relief goods were lacking and that NGO
   personnel failed to follow procedures, distributed food items in undesignated areas, and collected
   and damaged the national identity cards of some recipients. As a result of the investigation, the
   NGO has terminated ten personnel to date. A forensic audit of the NGO’s operation is now under
   way.

•	 Ten NGO Personnel Terminated for Misconduct in a USAID-Funded Agricultural
   Program. During spring 2011, the hotline received more than 80 complaints regarding problems
   with service delivery and criminal misconduct by employees of a Pakistani NGO implementing a
   USAID-funded agricultural project in Sindh Province. To date, the investigation has revealed
   numerous instances in which agricultural inputs were provided to individuals who did not meet
   program eligibility guidelines. In addition, poor internal controls and mismanagement resulted in a
   several-month delay in the delivery of tens of thousands of checks to program recipients. As a result
   of the ongoing investigation, the NGO has terminated ten employees and removed three others
   from all USAID-funded projects.

•	 USAID Vendor Implicated in Environmental Contamination Case. An OIG investigation
   was initiated after toxic levels of formaldehyde were detected in the air in offices of USAID OIG and
   the U.S. Embassy Islamabad. Formaldehyde is a pungent-smelling liquid that irritates the eyes and
   nasal passages and is a known carcinogen. Formaldehyde is commonly used as an adhesive to bind
   wood particles in furniture and is not harmful if the furniture is covered with a sealant. The
   investigation revealed that a local Pakistani vendor knowingly sold unsealed, fume-emitting furniture
   to USAID and the Embassy. The vendor admitted that, to save money, he declined to follow the
   manufacturer’s recommendation to seal the product. The contamination exposed more than 50

                                                                                                     40
    employees to toxic levels of formaldehyde. As a result of the investigation, a clause has been added
    to all new USAID purchase agreements requiring vendors to prevent formaldehyde contamination.
    The offending furniture was also removed. The matter has been referred to USAID’s Compliance
    and Oversight of Partner Performance Division for appropriate action.


Department of State Office of Inspector General

Work Under Way
As of June 30, 2011, DOS OIG had four evaluations under way:

•	 Review of the U.S. Mission Pakistan’s Local Security Program (Performance
   Evaluation). The review will examine and summarize the requirements and provisions of the U.S.
   Mission in Pakistan’s local security force contracts, including the objectives of the contracts and task
   orders, indicators established to measure performance, and internal controls over the contractors’
   performance and contract costs.

•	 Review of Embassy Islamabad Antiterrorism Assistance Program in Pakistan
   (Performance Evaluation). This review will examine the requirements and provisions of the
   Antiterrorism Assistance Program and associated contracts for Embassy Islamabad. Specifically, the
   review will (1) determine the degree to which antiterrorism training programs have achieved their
   intended outcomes, (2) assess whether contracts for antiterrorism training and equipment have
   been effectively managed, and (3) validate controls over foreign government equipment provided in
   support of the training programs.

•	 Review of Internal Management Controls of Funds Provided to Pakistan (Performance
   Evaluation). The review will determine whether specific internal controls have been properly
   designed and put in place for the Pakistan program funds, including procedures for planning,
   organizing, directing, and controlling program operations. The review also will assess the system for
   measuring, reporting on, and monitoring program performance.

•	 Review of Emergency Action Plan for Embassies Baghdad, Kabul, and Islamabad
   (Program Evaluation). The review will assess the status and effectiveness of emergency action
   plans for Embassies Baghdad, Kabul, and Islamabad to determine their reasonableness and their level
   of coordination with the military commanders in-country.

Work Planned for the Remainder of FY 2011

DOS OIG has no new evaluations planned for FY 2011. The previously reported DOS OIG review of
the operations and maintenance contract for Embassy Islamabad is scheduled for FY 2012.

To support its Pakistan portfolio, last October, DOS OIG established its field office at the U.S. Embassy
in Islamabad. As of June 30, 2011, DOS OIG had three investigative cases related to Pakistan.


                                                                                                        41
Department of Defense Office of Inspector General

DOD OIG has no ongoing or planned projects related to the civilian assistance program in Pakistan for
FY 2011.

Government Accountability Office

GAO is an independent, nonpartisan agency that oversees federal government spending. GAO’s mission
is to help improve the performance and ensure the accountability of the federal government for the
benefit of the American people. GAO performs oversight at the request of Congress. Additionally,
GAO may be required to research issues mandated by public laws or may undertake work prompted by
broad-based congressional interest under the authority of the Comptroller General. GAO supports
congressional oversight through many avenues, such as auditing agency operations, investigating
allegations of illegal activities, reporting on the efficiency and effectiveness of government programs and
policies, analyzing policy, outlining options for congressional consideration, and issuing legal decisions
and opinions. GAO consults with key members of the accountability community, including the
inspectors general. For example, GAO participates in the Afghanistan-Pakistan Subgroup, which is
chaired by USAID OIG and focuses on oversight of U.S. programs in those two countries.

Work Under Way

From April 1 through June 30, 2011, GAO had three ongoing engagements concerning Pakistan:

•	 U.S. Efforts to Enhance Pakistan’s Security Forces. This engagement is assessing (1) the
   status of U.S. efforts to train, equip, and improve infrastructure for Pakistani security forces to
   enhance counterinsurgency and counterterrorism capabilities along the western frontier bordering
   Afghanistan using the Pakistan Counterinsurgency Fund and the Pakistan Counterinsurgency
   Capabilities Fund and (2) the extent to which DOD and DOS are implementing and following
   policies and procedures for human rights vetting to ensure compliance with congressional human
   rights funding restrictions on the two counterinsurgency fund appropriations. GAO expects to
   complete this engagement in September 2011.

•	 Pakistan’s Anti-Terror Efforts. The Enhanced Partnership with Pakistan Act of 2009 prohibits
   military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
   Pakistan is making significant progress in combating terrorist groups—including ceasing support for
   such groups, preventing them from operating in Pakistan, and strengthening counterterrorism and
   anti-money-laundering laws—and that its security forces are not subverting the country’s political or
   judicial processes. The act requires GAO to independently assess this certification. GAO will
   assess the extent to which (1) DOS funding is contingent on the certification, (2) DOS complied
   with the mandated requirements, (3) the certifcation is supported by evidence from the U.S.
   agencies and the views of experts, and (4) DOS obtained input from other agencies to develop the
   certification and justification memorandum. GAO expects to complete the assessment 120 days
   after the President’s certification.



                                                                                                        42
•	 Pakistan Nuclear Networks. The Enhanced Partnership with Pakistan Act of 2009 prohibits
   military assistance and arms transfers to Pakistan in FY 2011–14 unless the President certifies that
   Pakistan is continuing to cooperate with the United States in efforts to dismantle nuclear supplier
   networks relating to the acquisition of nuclear-weapons-related materials—for example, by
   providing relevant information from or direct access to Pakistani nationals associated with such
   networks. The act requires GAO to independently assess this certification. This engagement will
   assess the extent to which (1) the A.Q. Khan network facilitated the proliferation of sensitive
   nuclear technology, (2) experts identified potential gaps in the U.S. Government’s knowledge of the
   A.Q. Khan network, (3) Pakistan has cooperated with the United States to ensure that the network
   is no longer active, and (4) DOS certification is consistent with experts’ views on Pakistan’s
   cooperation with U.S. efforts to dismantle nuclear networks. GAO expects to complete this
   assessment 120 days after the President’s certification.


Work Planned for the Remainder of FY 2011

In response to congressional interest, GAO may begin additional work on Pakistan and relate its findings
in subsequent reports.




                                                                                                     43
Completed Oversight Reports as of June 30, 2011

Table 9 lists oversight reports completed since the passage of the Enhanced Partnership with Pakistan
Act, October 15, 2009.

                  Table 9. Oversight Reports Completed as of June 30, 2011

Agency     Report Number        Report Date                            Report Title
                                                 Closeout Financial Audit of the Forman Christian College
                                                 for the Development of a Four-Year Bachelor Degree
USAID     G-391-11-004-R           6/23/11       Program and Strengthening Programs in Basic Science and
                                                 Information Technology, for the Period July 1, 2009, to
                                                 March 31, 2010
                                                 Audit of USAID/Pakistan’s Road Rehabilitation and
USAID     G-391-11-005-P           6/20/11       Reconstruction Activities Under the Quick Impact Projects
                                                 in South Waziristan

                                                 Financial Audit of USAID/Pakistan’s Rupee Trust Fund, for
USAID     G-391-11-001-N           5/26/11
                                                 the Period October 1, 2006, to September 30, 2009

                                                 Financial Audit of the Pakistan Competitiveness Support
                                                 Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06­
USAID     G-391-11-003-R           5/10/11
                                                 01073-00, Managed by Competitiveness Support Fund for
                                                 the Period July 1, 2009, to June 30, 2010

                                                 Audit of USAID/Pakistan’s Management of Preaward
USAID     G-391-11-004-P            5/6/11
                                                 Assessments

                                                Closeout Financial Audit of the Program “Interactive
                                                Teaching & Learning Project,” USAID/Pakistan Cooperative
                                                Agreement No. 391-A-00-06-01075-00, and Financial Audit
                                                of Program “Links to Learning Education Support to
USAID     G-391-11-002-R            4/8/11    

                                                Pakistan,” Sub-Award under USAID/Pakistan Cooperative
                                                Agreement No. 391-A-00-08-01100-00, Managed by
                                                Children’s Global Network Pakistan Limited, for the Period
                                                July 1, 2008, to February 26, 2010
                                                Department of State’s Report to Congress and U.S.
GAO        GAO-11-310R             2/17/11      Oversight of Civilian Assistance to Pakistan Can Be Further
                                                Enhanced
                                                 Accountability for U.S. Equipment Provided to Pakistan
GAO        GAO-11-156R             2/15/11       Security Forces in the Western Frontier Needs to be
                                                 Improved

                                                 Audit of USAID/Pakistan’s Flood Relief Efforts as
USAID     G-391-11-003-P           1/24/11 
                                                 Administered by Local Nongovernmental Organizations

                                                 The Bureau of Population, Refugees and Migration’s
DOS        MERO-I-11-01              1/11 
                                                 Internally Displaced Persons Program in Pakistan

                                                 Financial Audit of Khushhali Bank Limited Under the
                                                 Developing Non-Bankable Territories for Financial Services
USAID      G-391-11-001-R          12/30/10
                                                 Program (Close-Out Audit), for the Period January 1, 2009,
                                                 to September 30, 2009

                                                                                                          44
Agency   Report Number    Report Date                          Report Title
                                        Audit of USAID/Pakistan’s Livelihood Development Program
USAID    G-391-11-002-P     12/10/10    for the Upper Region of the Federally Administered Tribal
                                        Areas
                                        Audit of USAID/Pakistan’s Livelihood Development Program
USAID    G-391-11-001-P     12/10/10    for the Lower Region of the Federally Administered Tribal
                                        Areas
                                        Financial Audit of the Costs Incurred by Research Triangle
                                        Institute Under the Education Sector Reform Assistance
USAID    G-391-11-001-D     11/8/10
                                        Program’s School Enhancement Program Component, for
                                        the Period December 4, 2002, to September 30, 2007

                                        Audit of USAID/Pakistan’s Family Advancement for Life and
USAID    5-391-10-012-P     8/31/10
                                        Health Program

                                        Financial Audit of the Pakistan Competitiveness Support
                                        Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06­
USAID    G-391-10-001-R      8/4/10
                                        01073-00, Managed by the Competitiveness Support Fund,
                                        for the Period February 3, 2006, to June 30, 2009
                                        Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
USAID    5-391-10-010-P     6/28/10     Integration and Decentralization in Earthquake-Affected
                                        Areas Project

                                        Review of USAID’s Internally Displaced Persons Programs in
USAID    5-391-10-001-S     6/28/10
                                        Pakistan


DOS      ISP-I-10-64          6/10      Inspection of Embassy Islamabad, Pakistan

                                        Financial Audit of USAID Funds Managed by Forman
USAID    5-391-10-033-R     5/18/10     Christian College, Lahore, for the Period July 1, 2007, to
                                        June 30, 2009

                                        Financial Audit of USAID Funds Managed by Khushhali Bank
USAID    5-391-10-029-R     4/30/10
                                        for the Year Ended December 31, 2008

                                        Combating Terrorism: Planning and Documentation of U.S.
GAO      GAO-10-289         4/15/10     Development Assistance in Pakistan’s Federally
                                        Administered Tribal Areas Need to Be Improved
                                        Closeout Financial Audit of USAID Funds Managed by
USAID    5-391-10-026-R     3/24/10     Greenstar Social Marketing Pakistan (Guarantee) Limited,
                                        for the Period July 1 to December 31, 2007
                                        The Bureau of International Narcotics and Law Enforcement
DOS      MERO-A-10-03         3/10      Affairs Air Wing Program in Afghanistan and Pakistan,
                                        Performance Audit
                                        Closeout Financial Audit of USAID Funds Managed by Aga
USAID    5-391-10-020-R     2/11/10     Khan University—Examination Board, for the Year Ended
                                        December 31, 2007
                                        Audit of USAID/Pakistan’s Capacity Building for the
USAID    5-391-10-005-P     1/28/10
                                        Federally Administered Tribal Areas Development Program




                                                                                                     45
Agency   Report Number    Report Date                         Report Title
                                        Financial Audit of USAID Funds Managed by Children’s
USAID    5-391-10-012-R     12/22/09    Global Network Pakistan Limited, for the Year Ended
                                        June 30, 2008
                                        Status of the Bureau of International Narcotics and Law
DOS      MERO-A-10-02        12/09      Enforcement Affairs Counternarcotics Programs in
                                        Afghanistan, Performance Audit
                                        Effectiveness of Counter Narcotics Programs in Pakistan,
DOS      MERO-A-10-01        11/09
                                        Performance Audit




                                                                                                   46
                                                                                    Appendix




Appendix—–Abbreviations 

DEA      Drug Enforcement Administration

DOC      Department of Commerce

DOD      Department of Defense

DOS      Department of State

FAO      U.N. Food and Agriculture Organization

FATA     Federally Administered Tribal Areas

FBI      Federal Bureau of Investigation

FY       fiscal year

GAO      Government Accountability Office

G.A.P.   Good Agricultural Practice

GENCO    Power Generation Company

IDPs     internally displaced persons

IOM      International Organization for Migration

KNCV     Royal Netherlands Tuberculosis Association (Koninklijk Nederlandsche Centrale
         Vereeniging)

NAB      National Accountability Bureau

NAS      Narcotics Affairs Section (U.S. Embassy Islamabad)

NGO      nongovernmental organization

OFDA     Office of Foreign Disaster Assistance

OIG      Office of Inspector General

PAS      Public Affairs Section (U.S. Embassy Islamabad)

POL      Political Affairs Section (U.S. Embassy Islamabad)

RSO      Regional Security Office (U.S. Embassy Islamabad)



                                                                                         47
                                                     Appendix


U.N.     United Nations

UNFPA    United Nations Population Fund

UNICEF   United Nations Children’s Fund

USAID    U.S. Agency for International Development

USDA     U.S. Department of Agriculture

USIP     U.S. Institute of Peace

USTDA    U.S. Trade and Development Agency

WAPDA    Water and Power Development Authority

WFP      World Food Programme

WHO      World Health Organization




                                                          48
